<html>
<title> - NOMINATION OF HON. THOMAS ``TOM'' J. RIDGE</title>
<body><pre>[Senate Hearing 108-45]
[From the U.S. Government Printing Office]



                                                         S. Hrg. 108-45

 
               NOMINATION OF HON. THOMAS ``TOM'' J. RIDGE

=======================================================================


                                HEARING

                               before the


                              COMMITTEE ON
                          GOVERNMENTAL AFFAIRS
                          UNITED STATES SENATE

                      ONE HUNDRED EIGHTH CONGRESS

                             FIRST SESSION

                                 ON THE

   NOMINATION OF HON. THOMAS ``TOM'' J. RIDGE TO BE SECRETARY OF THE 
                    DEPARTMENT OF HOMELAND SECURITY

                               __________

                            JANUARY 17, 2003

                               __________

      Printed for the use of the Committee on Governmental Affairs


                      U.S. GOVERNMENT PRINTING OFFICE
                             WASHINGTON : 2003


85-336 PDF

For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpr.gov  Phone: toll free (866) 512-1800; (202) 512-1800  
Fax: (202) 512-2250 Mail: Stop SSOP, Washington, DC 20402-0001




                   COMMITTEE ON GOVERNMENTAL AFFAIRS

                   SUSAN M. COLLINS, Maine, Chairman
TED STEVENS, Alaska                  JOSEPH I. LIEBERMAN, Connecticut
GEORGE V. VOINOVICH, Ohio            CARL LEVIN, Michigan
NORM COLEMAN, Minnesota              DANIEL K. AKAKA, Hawaii
ARLEN SPECTER, Pennsylvania          RICHARD J. DURBIN, Illinois
ROBERT F. BENNETT, Utah              THOMAS R. CARPER, Deleware
PETER G. FITZGERALD, Illinois        MARK DAYTON, Minnesota
JOHN E. SUNUNU, New Hampshire        FRANK LAUTENBERG, New Jersey
RICHARD C. SHELBY, Alabama           MARK PRYOR, Arkansas
              Michael D. Bopp, Staff Director and Counsel
                    Johanna L. Hardy, Senior Counsel
      Joyce A. Rechtschaffen, Minority Staff Director and Counsel
                   Susan E. Propper, Minority Counsel
            Michael A. Alexander, Professional Staff Member
                     Darla D. Cassell, Chief Clerk

                            C O N T E N T S

                                 ------                                
Opening statements:
                                                                   Page
    Senator Collins..............................................     1
    Senator Lieberman............................................     3
    Senator Voinovich............................................     7
    Senator Levin................................................     8
    Senator Specter..............................................    10
    Senator Durbin...............................................    12
    Senator Sununu...............................................    13
    Senator Pryor................................................    14
    Senator Bennett..............................................    15
    Senator Akaka................................................    17
    Senator Coleman..............................................    19
    Senator Lautenberg...........................................    20
    Senator Shelby...............................................    20
    Senator Carper...............................................    21
    Senator Dayton...............................................    22

                                WITNESS
                        Friday, January 17, 2003

Hon. Thomas ``Tom'' J. Ridge to be Secretary of the Department of 
  Homeland Security
    Testimony....................................................    23
    Prepared statement...........................................    61
    Biographical and professional information....................    71
    Responses to pre-hearing questions...........................    83
    Responses to pre-hearing questions from Ranking Member 
      Lieberman..................................................   164
  Responses to post-hearing questions from:
      Senator Collins............................................   191
      Senator Shelby.............................................   206
      Senator Voinovich..........................................   209
      Senator Lieberman..........................................   210
      Senator Levin..............................................   222
      Senator Akaka..............................................   225
      Senator Durbin.............................................   227
      Senator Carper.............................................   232
      Senator Lautenberg.........................................   238

                                Appendix

Congressman Robert A. Brady, a member of the U.S. House of 
  Representatives from Pennsylvania, letter of support dated 
  January 17, 2003...............................................   241

               NOMINATION OF HON. THOMAS ``TOM'' J. RIDGE

                              ----------                              


                        FRIDAY, JANUARY 17, 2003

                                       U.S. Senate,
                         Committee on Governmental Affairs,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 9 a.m., in room 
SD-342, Dirksen Senate Office Building, Hon. Susan Collins, 
Chairman of the Committee, presiding.
    Present: Senators Collins, Voinovich, Coleman, Specter, 
Bennett, Fitzgerald, Sununu, Shelby, Lieberman, Levin, Akaka, 
Durbin, Carper, Dayton, Lautenberg, and Pryor.

             OPENING STATEMENT OF CHAIRMAN COLLINS

    Chairman Collins. The Committee will come to order. Good 
morning. Today, the Committee on Governmental Affairs is 
holding a hearing to consider the President's nomination of 
Governor Tom Ridge to be the first Secretary of the Department 
of Homeland Security.
    The establishment of the Department of Homeland Security 
will be the most significant restructuring of the Federal 
Government in more than 50 years. It will involve the merger of 
22 agencies and some 170,000 Federal employees. Managing this 
new Department will pose extraordinary challenges and President 
Bush has chosen an extraordinary leader.
    September 11 focused our attention on homeland security as 
never before. Now, we understand all too well why it is a 
problem if our first responders do not have compatible 
communications systems. Interoperability has gone from being a 
buzz word to a matter of life and death. Now, we recognize the 
vulnerability posed by the 17 million shipping containers 
arriving in the United States from all over the world, with few 
of them ever being searched. And now, we understand that our 
Nation's 20,000 miles of land and sea borders present countless 
opportunities for our enemies.
    We also realize that we can no longer rely on an ad hoc 
approach to homeland security. Currently, as many as 100 
agencies are responsible for our security, but not one had 
homeland security as its primary mission. When that many 
entities are responsible, none is really accountable and turf 
battles and bureaucratic disputes are inevitable. The homeland 
security effort will take all of us working together--the 
administration, the new Secretary, and the Congress--to ensure 
the success of this reorganization to improve the security of 
our Nation.
    At the same time, we must ensure that those non-homeland 
security functions moving to the Department are not neglected. 
For example, the Coast Guard has important functions related to 
homeland security. Its other responsibilities, particularly its 
search and rescue mission, are crucial in many parts of our 
country. On a typical day, the Coast Guard saves 10 lives, 
interdicts 14 illegal immigrants, inspects and repairs 135 
buoys, and helps more than 2,500 commercial ships navigate into 
and out of U.S. ports. That is why Senator Stevens and I worked 
with other Members of this Committee to include language in the 
law that would ensure that these functions are preserved.
    The need for stronger and better coordinated border 
security was the rationale for transferring the Immigration and 
Naturalization Service to the new Department, but the new 
Secretary must also ensure that more stringent border security 
does not unduly hinder routine and legitimate border crossings, 
particularly in border States.
    Another challenge for the new Department will be to 
effectively support those men and women on the front lines, our 
Nation's two million first responders. The Homeland Security 
Act establishes an Office for State and Local Government 
Coordination, but it offers no assurance that the new 
Department will coordinate and communicate effectively with 
State and local first responders. Senators Feingold, Carper, 
and I would have placed a Department liaison in each State. 
Ensuring that our partners at the State and local level have 
sufficient attention, cooperation, and resources will require 
more work.
    Given the breadth of responsibilities, this cabinet post 
may well be the most challenging position created by Congress 
since it established the Department of Defense in 1947. It is, 
therefore, critical that the new Secretary possess exceptional 
leadership and management skills, as well as an unwavering 
commitment to serving our Nation.
    I believe that Governor Ridge is exactly the right person 
for the ground. His background, temperament, and experience 
make him ideally qualified to be the first Secretary of the 
Department of Homeland Security. His resume is impressive. In 
addition to his current service as Assistant to the President 
for Homeland Security, he twice was elected Governor of 
Pennsylvania, served six terms in Congress, and worked as an 
Assistant District Attorney.
    But perhaps the clearest indication of his character is not 
something that you would find on his resume. It is the story of 
his service in the U.S. Navy during the Vietnam War. Governor 
Ridge was one of the first, if not the only, graduate of 
Harvard to serve in Vietnam as an enlisted man, and he did so 
with distinction. Infantry Staff Sergeant Ridge was awarded a 
Bronze Star for Valor.
    These impressive credentials speak to the character of a 
remarkable man. Governor Ridge, you have a difficult job ahead 
of you, but I want you to know that this Committee is ready to 
stand behind you and with you all of the way.
    While the new Department will not make us safer overnight, 
at the end of the day, its establishment must lead to new 
capabilities that will make our Nation more secure. Our goal 
must be a Department that enables our country to better deter, 
detect, prepare for, and respond to a terrorist attack. To 
attain this goal will require not only extraordinary leadership 
from the Secretary, but also the cooperation of the agencies 
transferred to the new Department and the full support of the 
Congress. Ultimately, the success of the new Department rests 
not just on the shoulders of Governor Ridge, but on all of us.
    It is my pleasure to welcome all of the Committee Members 
this morning, particularly the new Members of the Committee. We 
are very pleased to have Senator Specter returning to the 
Committee and to welcome the new Members who are here today, 
Senator Sununu, Senator Pryor. I want to welcome you.
    Now, I would like to turn to the distinguished Ranking 
Member of the Committee, Joe Lieberman. Senator Lieberman has 
been instrumental in the establishment of the new Department 
and it is a pleasure to call upon him for his opening 
statement.

             OPENING STATEMENT OF SENATOR LIEBERMAN

    Senator Lieberman. Thank you, Madam Chair, Governor Ridge. 
Senator Collins, I congratulate you and wish you well as you 
assume the Chairmanship of this very important Committee and I 
have every confidence that you will lead it forward in all of 
its best traditions of aggressive oversight of progressive 
initiatives and of a largely bipartisan spirit in conducting 
our business. I look forward to working with you and I join you 
in welcoming our two new Members, Senator Pryor and Senator 
Sununu, and welcoming back that old soldier who just doesn't go 
away, the great Senator Arlen Specter. [Laughter.]
    As you have said, Madam Chair, this is an historic 
confirmation hearing literally, and I hope and believe it 
begins a new era of responsibility and readiness for America's 
domestic defenses.
    Sixteen months ago, America and the world changed forever. 
September 11, 2001, will not only be remembered as the single 
worst attack on American civilians in our history, it will 
also, unfortunately, be remembered, and must be, as the most 
catastrophic breakdown ever in America's homeland security. The 
attacks revealed that just about every link in our security 
chain, public and private, from intelligence analysis to border 
and transportation security, was either broken or brittle.
    The establishment of a Department of Homeland Security is 
the critical first big step forward in strengthening our 
homeland defenses. It will consolidate more than two dozen 
agencies and offices and organize them in a logical, 
accountable, and strong chain of command, and at the top of the 
agency, we will have a single cabinet Secretary with strong 
budget authority who will be responsible to the Congress and to 
the people.
    Governor Ridge, I know you appreciate the enormity of the 
task ahead of you and I appreciate, as I am sure we all do, 
your willingness to accept this challenge. Perhaps I should say 
your courage in accepting this challenge. You will oversee, as 
Senator Collins has said, the largest Federal Government 
reorganization since the late 1940's, and in this case, you 
must oversee that reorganization not before the crisis which it 
responds to, but in the midst of it. As I think I said to you 
once, you are in a position that Noah would have been in if the 
Lord had asked him to start building the ark after the rain had 
already started falling, and, of course, that means that you 
and we have to act with a sense of urgency as we go forward.
    Let me say for my part, as one who fought along with 
colleagues on this Committee for the new Department for as long 
as a year, I will do everything I can to support your efforts 
and I will do everything I can to ensure that the Department 
has the resources and the support it needs and deserves, 
because this is the most urgent responsibility our Federal 
Government has today.
    We, in the Congress, have historically managed to elevate 
support for our armed services above partisan politics and we 
must now do the same for homeland security, and I am confident 
that through this Committee, we will do just that.
    I want to say that I have never been under the illusion, 
and I am sure you are not either, that reorganization would by 
itself be the solution to our homeland security challenges. Of 
course, we need the right structure, but having the right 
structure is no guarantee in itself of success. We also need 
the right people, the right policies, and the right programs, 
and we need adequate resources to enable and empower you and 
the people working under you to get this critical job done.
    In this area, I must say that the administration's homeland 
security efforts thus far have left much to be desired, and in 
my opinion, leave much to be done quickly. This is not only my 
personal judgment. Almost every independent assessment that I 
have seen says that in almost every way, America is as 
vulnerable today to terrorist attack as we were on September 
11.
    The most persuasive of these assessments was produced by 
former Senators Hart and Rudman, who last October issued a task 
force report under the auspices of the Council on Foreign 
Relations, which concluded in part, ``America remains 
dangerously unprepared to prevent and respond to a catastrophic 
attack on U.S. soil. In all likelihood, the next attack will 
result in even greater casualties and widespread disruption to 
American lives and the economy.''
    The facts are that our local and State law enforcement 
officials are operating in a virtual intelligence vacuum with 
no access to the terrorist watch list, for instance, that the 
State Department provides to our immigration and consular 
officials. In the words of the Hart-Rudman report, when it 
comes to combatting terrorism, the police officers on the beat, 
``are effectively operating deaf, dumb, and blind.'' In my 
view, the administration has only taken small steps thus far to 
fix this problem.
    Container ships, trucks, and trains entering the United 
States over our borders and through our ports are subject to 
hardly any examination. Of the 21,000 shipping containers that 
come through our ports every day, no more than 2 percent are 
inspected, and the administration must--you and we must do 
better quickly to remove the dangerous risk that remains.
    Our first responders are still inadequately prepared, in 
many cases unprepared, for potential chemical or biological 
attacks. They lack the necessary training and their 
communication systems are, in most cases, incompatible with 
each other. Again, I know that the administration has talked 
about responding to this problem, but the solutions and the 
resources have not been seen yet.
    The National Guard is still oriented to supporting 
conventional combat units overseas, but we can and must make 
much greater use of their effectiveness and skill here at home. 
I have offered a plan for our country which I think will help 
us make better use of the Guard for homeland defense.
    And we still lack effective vaccines and medicines to 
counter the vast majority of biological and chemical weapons. 
It is unacceptable that we have not come further faster, and 
that is the mission I think you will accept as you assume this 
new position.
    In my opinion, the administration's record on homeland 
defense, though under your leadership in the office which did 
not give you adequate power, some steps forward have been 
taken. Overall, it has been too weak, its vision has been too 
blurry, and its willingness to confront the status quo, 
including with resources, has been too limited.
    Bureaucratic inertia is a powerful force, and that is why 
the Homeland Security Act which we passed and the President 
signed needs to be implemented very boldly. Bureaucratic turf 
needs to be ripped up. Governor Ridge, you had a great comment 
you made last October, ``The only turf we should be worried 
about protecting is the turf we stand on.'' And you were 
absolutely right.
    Thus far, I have not seen indication in several critical 
areas that the administration is prepared to live up to that 
standard that you set in that statement, and I want to give you 
one crucial example where I think the reaction has been more 
reactive than proactive, and that is intelligence collection, 
dissemination, and analysis.
    We know that the failure of our intelligence agencies to 
connect the dots on September 11 was the single greatest 
failure among many of our homeland security systems leading up 
to September 11. Nevertheless, the administration has thus far 
failed to challenge or adequately change the status quo of the 
intelligence community to fix what is broken.
    On paper, the passage of the new Homeland Security Act was 
meant to usher in a new era which would do just that. The bill 
creates a single source, all-source information, analysis, and 
infrastructure protection unit within the new Department that 
Senator Specter and I and others worked very hard to construct. 
But I am very disturbed by the early indications, and I hope 
you can turn this around, that the administration still 
believes that the primary responsibility of the Department's 
new intelligence unit is to protect critical infrastructure and 
that performing analysis of intelligence to prevent other 
attacks is secondary or peripheral.
    The fact is that we can imagine horrific terrorist attacks 
that are not against critical infrastructure as we know it but 
against people. I hesitate to mention examples, but they are in 
our minds: A bomb in a shopping mall, a biological agent 
dropped from overhead onto city streets. Therefore, it makes no 
sense for the new Department's intelligence division to put on 
critical infrastructure blinders rather than assessing and 
processing all information related to terrorist attacks against 
Americans here at home or anywhere.
    I am also troubled that the administration has not yet 
acted with sufficient urgency and directness to break down 
existing barriers to getting the necessary intelligence 
information to the new Department that you will head. The 
assumption in the Homeland Security Act is that unless the 
President or future Presidents determine otherwise, all FBI, 
CIA, and other government information about terrorist threats, 
including so-called unevaluated intelligence possessed by 
intelligence agencies, will be routinely shared with this new 
unit.
    Unfortunately, there are early signs reported in the media 
a month ago that the administration is acceding to the 
intelligence community's predictable resistance to the change 
that the law would bring about and thereby undermining these 
provisions rather than implementing them faithfully. That is a 
deeply disturbing development and it really calls out for your 
strong leadership to get your Department what I think the 
Congress intended it to have.
    Finally, the critical problem of insufficient funding. We 
have dozens of Federal agencies, including many that are being 
consolidated into the new Department, that are already in the 
midst of urgent work post-September 11. The Coast Guard, Border 
Patrol, and others need to train their employees, for instance, 
to acquire new technology. But the administration has not yet 
provided them with the necessary funding, and, therefore, they 
will not be able to do this adequately.
    Indeed, as you well know, just yesterday on the Senate 
floor, the Republican leadership, I believe, shortchanged 
Homeland Security by nearly $1 billion compared to what Senate 
appropriators agreed to last Congress. As a result, now $627 
million isn't being provided to the Immigration and 
Naturalization Service, a part of the new Department, for a 
variety of critical border security measures. And local first 
responders are not receiving the money that they expected to 
get as appropriated or recommended last year. And the list goes 
on.
    The problem is most pressing, I think, at the local level, 
where local and State first responders, who also, if we use 
them well, can be our first preventers of terrorism, are not 
getting the support that they need. Late last summer, the 
President inexplicably blocked $2.5 billion in emergency 
spending that could have gone to Federal agencies and State and 
local officials for their homeland security efforts. That was 
wrong, and I think you and we have to work to turn that around, 
including turning around the disbursement of the money that has 
already been appropriated and not yet fully received at the 
State and local level.
    Governor Ridge, you know better than any of us that this 
war on terrorism and the critical work of homeland security 
cannot be won with a magic wand or wishful thinking. It is 
going to take strong leadership that you can provide and a lot 
of money that the administration and we must provide. It is 
going to take talent, training, and technology. It will take 
real, not rhetorical, partnership among every layer and level 
of government. It is going to take a clear vision and a 
consistent attention to achieving the goals outlined in that 
vision as expressed in the Homeland Security Act. And, of 
course, it will take tireless effort on the part of the 
thousands of Federal employees who will now report to you.
    All this will soon fall on your literally broad shoulders, 
and so, too, will the responsibility to be a vigorous advocate 
within the administration for adequate resources for homeland 
security, from the President you serve on behalf of the 
American people that you and we must better protect. Thank you.
    Chairman Collins. Thank you, Senator Lieberman.
    Before calling on other Members for brief opening 
statements, I want to welcome two other new Members to the 
Congress. Senator Coleman of Minnesota, we are delighted to 
have you as a Member of this panel. Senator Lautenberg of New 
Jersey, welcome back to the Senate, and again, welcome to the 
Governmental Affairs Committee.
    We are going to follow the tradition of this Committee in 
recognizing people in the order that they arrived. Senator 
Voinovich, it is my pleasure to call upon you. I would ask my 
colleagues to keep their opening statements brief. We do expect 
early votes this morning and we are hoping to conclude as many 
opening statements as possible. In fact, if any of you wish to 
just put your statement in the record rather than deliver it, 
that would certainly be an acceptable alternative.
    Senator Voinovich, thank you for being here and you may 
proceed.

             OPENING STATEMENT OF SENATOR VOINOVICH

    Senator Voinovich. Thank you, Madam Chairman. Your 
statement and that of our Ranking Member, I think, pretty well 
lay out what most of the Members of this Committee think about 
the new agency and Governor Ridge.
    I am pleased that this Committee is moving swiftly to 
consider the nomination of Governor Ridge to be Secretary of 
the Department of Homeland Security. There is no more urgent 
business before this Committee than to expeditiously move 
Governor Ridge's nomination, and it would be wonderful, Madam 
Chairman, if we did it today, because Governor Ridge is eager 
to get on officially with his responsibilities.
    I have known the Governor for a long time. We served 
together in the National Governors Association and the Council 
of Great Lakes Governors. As you pointed out, Madam Chairman, 
he has served this country with distinction in the service in 
Vietnam, as Congressman, and also as Governor of Pennsylvania. 
I want to thank you, Tom, Michele, and the family, for 
answering the call of the President to give up your job as 
governor to come to work for the President and for your 
willingness to take on this very formidable challenge that you 
have. I believe that it is an opportunity for you to leave a 
lasting legacy to your country.
    The job is formidable. You are going to be responsible for 
some very serious missions, protecting the lives and livelihood 
of all Americans at home, orchestrating the merger of 20 
different agencies. It is the most significant consolidation 
since 1947 when Congress established the Defense Department. In 
that consolidation, there was a common threat that ran through 
the agencies being brought together. With the current 
consolidation, there are several different threats, so you have 
a tougher job than they did back then.
    There are several aspects of the Department in which you 
know I am very interested: The relationship between your 
Department and State and local governments, the first 
responders program, and the structure of the Department's human 
resources system. One of the things I think is really important 
here is that we are hearing from local and State Government. 
Too often, some of the requests coming in are for things that 
ordinarily they would pay for on the State and local level. We 
have to make sure that the money the Federal Government 
provides them is going for things like HAZMAT and other 
activities dealing with security and not just for things that 
they should appropriately pay for.
    The other critical issue is the Department's workforce. We 
need the right people with the right skills and at the right 
place, at the right time. Part of the reason I think we had 
September 11 is that the Federal Government's personnel system 
has prevented the proper configuration of staff and the needed 
flexibilities have not been in place.
    I really think it is important that while you are 
establishing your personnel system, the Federal Government's 
intelligence agencies are doing the same thing in terms of 
having the people that they need to get the job done, and as 
Senator Lieberman said, to get the information flowing back and 
forth between those various Federal agencies.
    I will never forget the testimony of former Secretary of 
Defense Schlesinger before our oversight subcommittee, talking 
about the Hart-Rudman Commission's report, when he said that 
unless we fix the personnel problem, we are not going to be 
able to repair everything that is wrong with the U.S. national 
security edifice. I think that this Committee and this country 
have to understand that we need the best people in government 
today, and that is why we really need to concentrate on this 
issue.
    I thank you for your willingness to serve and your 
sacrifice, and I want you to know I will do everything I can to 
help you. Thank you.
    Chairman Collins. Thank you very much, Senator Voinovich. 
You have been a leader in Federal workforce development and we 
look forward to your continued contributions.
    I see that I neglected to recognize another of our 
colleagues who is new to this Committee, Senator Shelby of 
Alabama. Because he has been so instrumental in homeland 
security and intelligence issues for so many years, it seems 
like you have always been a Member of this Committee. But we 
are delighted to have you.
    I would now like to turn to Senator Levin for his opening 
statement. Senator Levin has been a stalwart on this Committee 
for many years and we work very closely and I look forward to 
hearing your remarks.

               OPENING STATEMENT OF SENATOR LEVIN

    Senator Levin. Thank you, Madam Chairman, and welcome, 
Governor Ridge. The challenge before you is massive. It has 
been outlined. I believe you are up to the job, and that is the 
most important conclusion for each of us to reach and I hope 
that you will be confirmed with great speed.
    We have a lot of work to do on this Committee, in my 
judgment. Your work has been outlined. Putting together all 
these people and all these agencies and pieces of agencies is a 
huge job. But we have some repairs to make in the underlying 
legislation already, repairs that seem to me to be quite 
obvious.
    The most important one has to do with the analysis of 
intelligence, to make clear where that analysis must be done, 
first when it comes to foreign intelligence, and then when it 
comes to domestic intelligence, and then putting those together 
and comparing that to what information we have relative to 
vulnerabilities of our infrastructure.
    Where is foreign intelligence going to be analyzed? It 
cannot be analyzed in two places. We will be lucky to do it 
well once. It has not been done well once. As a matter of fact, 
the intelligence failures before September 11 were massive. In 
my judgment, at least September 11 may have been avoided had 
those intelligence failures not been there. Where will foreign 
intelligence be analyzed?
    In our bill, which came out of the Governmental Affairs 
Committee--it was a bipartisan bill--we focused responsibility 
for the analysis of foreign intelligence at the Counter-
Terrorist Center. If that is going to be shifted, fine, but it 
has to be clear where it goes.
    There is another issue. Where will all the domestic 
intelligence that we have be analyzed? FBI intelligence, all 
our Federal agencies, State and local intelligence, where is 
that going to be analyzed? We have to focus responsibility for 
that, as well, and it is a different issue, but it is a 
critical issue. Intelligence is going to have a greater and 
greater role to play. I think we all recognize that. Truly, our 
first line of defense is to gather the intelligence from 
thousands of places, analyze it correctly, and get it in the 
hands of the people that need it.
    The few other things that we need to repair, I am just 
going to allude to and I will ask that my entire statement be 
placed in the record.
    The Freedom of Information Act language has got to be 
clarified. We are denying the public unclassified information 
in the current law, which should not be denied to the public. 
We had a bipartisan compromise here which was included in our 
bill. Senator Bennett lead that effort. That was dropped in the 
final legislation. We must address that.
    Whistleblower protection, we are not going to protect 
whistleblowers under the current law even though they blow the 
whistle on unclassified information. There is no reason why we 
should not protect whistleblowers. We will be more secure if we 
do. And again, I emphasize that we are talking about 
unclassified information that should not be shielded from the 
public.
    The appropriations needs have been outlined by my 
colleagues. We have already fallen way short of what we 
committed to do relative to appropriations.
    And finally, we need a central place where local 
governments and other organizations can come for information. 
One of the complaints that we hear regularly in our offices is 
that our local governments and other applicants for resources 
do not know where to go. Now, that may be cured in the long 
term. You will presumably have one phone number, one place 
where everybody can go to get information. But in the short 
term, in the next few months, because you and I have spoken 
about this in my office, it is important that there be one 
phone number where people can be at least temporarily told 
where to apply for whatever resources we have available. There 
is a lot of confusion out there relative to those resources, 
huge needs. We need that centralized location.
    Again, I look forward to your speedy confirmation, 
Governor. I think you are a wonderful selection for this 
absolutely essential position.
    Chairman Collins. Thank you, Senator Levin. Senator 
Specter.

              OPENING STATEMENT OF SENATOR SPECTER

    Senator Specter. First, congratulations, Madam Chairman, on 
your Chairmanship. Congratulations on scheduling this hearing 
so promptly, just 2 days after you became the Chairperson.
    I am delighted to be here in a dual capacity, to return to 
this very distinguished Committee and also to introduce our 
very distinguished nominee for Secretary of the Department of 
Homeland Security, and I think it is a superb appointment for a 
man with a superb career, and I will have more to say about 
Governor Ridge in a few moments.
    I would pick up on the themes today about the importance of 
this new position on coordinating intelligence. This is 
definitely a job that needs to be done, evidenced by September 
11. Exactly 1 month later, on October 11, Senator Lieberman and 
I introduced the legislation for a Department of Homeland 
Security. We were glad to see President Bush support the idea. 
This is really an historic occasion on your confirmation that I 
join in the wish that we will vote you Secretary today and 
waive the rules after this hearing is finished and the Senate 
is in session so that can be accomplished.
    But I do believe that had all of the dots been on the big 
board, September 11 could have been prevented. There was the 
FBI Phoenix report about a suspicious man taking flight 
training, interested in take-offs but not in landings, the big 
picture of Osama bin Laden in his home. There was the Zacarias 
Moussaoui incident where the FBI applied the wrong standard for 
a warrant under the Foreign Intelligence Surveillance Act. 
There were the two men in Kuala Lumpur known to the CIA, not 
passed on to INS or the FBI, became two of the suicide bombers 
on September 11. There was the NSA report on September 10 that 
something was going to happen the next day. It wasn't 
translated until September 12.
    So it is my hope that under your direction and under this 
institutionalized approach that we will be able to put all the 
dots on the board. From our extended discussions, you know of 
my concern that there be adequate authority for the Secretary 
to direct, and I had pursued that legislative purpose last 
November and withheld at the request of the President, you, and 
the Vice President so that the legislation would not be 
delayed. But I intend to pursue that amendment and I believe 
there are also some refinements that need to be made on labor 
relations on the issue of collective bargaining.
    My red light just went up. I conclude.
    Chairman Collins. Thank you, Senator Specter. Senator 
Durbin.

              OPENING STATEMENT OF SENATOR DURBIN

    Senator Durbin. Thank you, Madam Chairman, and 
congratulations on your new assignment.
    Governor Ridge, thank you for joining us. I am pleased that 
the President has asked you to serve our Nation as our first 
Secretary of the new Department of Homeland Security. It is a 
difficult job, but the President could not have picked a better 
person. We have been friends and colleagues for 20 years and I 
have been one of your greatest fans. I am happy to report to 
you that you already have my vote no matter what you say 
today---- [Laughter.]
    And that I will enthusiastically and overwhelmingly support 
your quick confirmation by the U.S. Senate.
    But I have some concerns about the birthing of your new 
Department and I want to express them openly and publicly 
today. Last year, Democrats and Republicans overwhelmingly 
supported the concept of this new Department, but we had our 
disagreements. One of those disagreements related to the 
question of employee rights in your new Department. I think you 
understand what happened to that issue in the last election.
    Those of us who raised questions about the policy of this 
administration relative to employee rights had our patriotism 
questioned. In fact, one of our colleagues on this Committee, a 
fellow Vietnam veteran, a disabled veteran, had this as a major 
issue in his campaign, as to whether or not he was truly 
patriotic to America if he raised questions about employee 
rights.
    I hope you will clarify today what your approach will be, 
and what your philosophy and values are. I see in your 
background that you once carried a union card. I think you 
understand, as I do, that on September 11 when those fire 
fighters went racing into the World Trade Center to their 
deaths, that they carried union cards in their wallets. They 
were professionals. They were Americans. They loved their 
country. No one who stands up for the rights of collective 
bargaining should have their patriotism questioned, yet that 
happened in the last campaign relative to your new Department. 
You can clear the air on that. I hope you will today, and share 
what your policy and philosophy will be.
    I won't recount the long history of the creation of the 
Department on Capitol Hill. We had several conversations on the 
phone. But I will tell you, at the end, the bill came to us on 
a take it or leave it basis in the Senate. We were told there 
would be no amendments accepted on the Senate floor by the 
White House. I had an amendment relative to computers, the 
interoperability of information technology, and worked on it 
long and hard. It wasn't partisan. There was really nothing in 
it that I think could be labeled Democrat or Republican. The 
idea was to try to get the computers in our Federal Government 
to communicate with one another. You and I spoke about it. You 
called it a force multiplier, and I quoted you on the floor, 
because I think you are right.
    Well, that section was not included in the bill. That 
amendment was denied. The White House wouldn't accept it. Now, 
we have the responsibility to make the Department work, and I 
have spoken to you about it and I hope that we can continue to 
work together to improve and modernize the antiquated computer 
technology in our Federal Government, and particularly as it 
relates to security and homeland security and fighting 
terrorism.
    And finally, I am disappointed yesterday that we were 
unable to attract even one vote from the Republican side of the 
aisle to put more money into homeland security. It appears now 
that the sky is the limit when it comes to defense spending 
relative to overseas security. I hope that this administration 
will not give us a hollow homeland security, though it tries to 
fund at very high levels all levels of military spending. I 
think we need both. We need a strong Nation abroad. We need a 
strong Nation at home. You have a particular responsibility 
there and I will work with you to achieve that goal. Thank you.
    Chairman Collins. Thank you, Senator Durbin. Senator 
Sununu.

              OPENING STATEMENT OF SENATOR SUNUNU

    Senator Sununu. Thank you very much. Welcome, Governor. It 
is a pleasure to be here as a new Member of the Committee. It 
is a little bit unnerving, though, when my predecessor, Warren 
Rudman, is mentioned three or four times before I am even given 
the chance to speak. He is a good friend and I know he has done 
a lot of work leading up to the information gathering and the 
restructuring of the Department that you have in front of you.
    Governor, I have been told that every member of the Senate, 
either secretly or maybe not so secretly, wants to be 
President. I haven't been in the Senate long enough to know if 
that is true, but I will admit to you, as a member of the House 
Appropriations Committee from time to time, we would take 
testimony from the NASA Administrator, the head of the NSF. I 
would envy their role a little bit, the challenges that they 
had in front of them, the issues that they were dealing with.
    But I will tell you very bluntly, I can't think of anything 
in your job or your role or the challenges ahead of you that I 
envy at all. We have heard about the bureaucratic hurdles you 
are going to have to face, the complexity involved in this 
restructuring, the information technology challenges, the 
intelligence gathering and analysis that is going to have to be 
refined if we really want to do the best possible job of 
protecting the homeland, and, of course, the scope and 
diversity of the task in front of you. Those are enormous, 
daunting challenges. It is the most major reorganization of 
government certainly that has taken place in my lifetime, 
perhaps in the lifetime of all of the Members of the Committee 
here today.
    So I wish you well. I will concur with my colleague on the 
other side that I will be happy to vote for you because you are 
the most qualified person that I can think to take on the job 
as Secretary.
    I mentioned the scope and diversity of the challenge in 
front of you. In many ways, that is typified by my home State 
of New Hampshire. It is a small State, but many would say a 
very important State. But on an issue like homeland security, 
so many of the issues before you are well represented. We have 
a commercial port, we have a military facility, we have an 
international border, and, of course, we have all the aviation 
and commercial infrastructure that you are going to be called 
on to work to protect. I want to wish you well in that task, 
because it does make a difference, not just to our big urban 
areas, but to even the small States like New Hampshire.
    I do agree with the statement that was made earlier that 
you are going to have to be willing to challenge the status quo 
to do that. You are going to have to be willing to fight that 
bureaucracy. I think the phrase that was used is ``rip up the 
bureaucratic turf.'' In making that point, I will underscore 
that that is precisely the reason we gave you the flexibility 
in putting the right people in the right place at the right 
time that we have given to other positions and Departments 
involved in national security.
    The debate that took place on that issue was not a debate 
or discussion about patriotism, it was a debate and a 
discussion about the best way to allow you to shake up the 
status quo. I don't think anyone's patriotism was ever 
questioned on that issue. I think people's judgment or decision 
making was questioned. Is it right? Is it wrong? Is it in the 
best interests of the Secretary in the new Department of 
Homeland Security to give you that flexibility in hiring and 
firing personnel decisions?
    But I think it was the right decision. I think it is one 
that I hope the Senate and the House will continue to stand by 
because we cannot confront the status quo, we cannot rip up the 
bureaucratic turf unless we give you the power and the 
authority that you need. Good luck.
    Chairman Collins. Thank you, Senator Sununu. Senator Pryor.

               OPENING STATEMENT OF SENATOR PRYOR

    Senator Pryor. Thank you, Madam Chair. I want to thank you 
for your leadership of this Committee and I look forward to 
working with you. Senator Lieberman, it is always great to be 
with you. I appreciate this Committee and look forward to 
addressing the challenges before it.
    Governor Ridge, thank you for being here. I want to 
personally thank you for your time and your accessibility and 
availability to me as I have had questions. You have come to my 
office and we have talked about a lot of issues today. I want 
you to know, like Senator Durbin, you have my support today 
regardless of how the questioning goes. I am very impressed 
with your commitment, your vision, your leadership, and look 
forward to working with you.
    I also must say that, like Senator Durbin, I do have some 
concerns about the organization and the restructuring. It is 
the largest restructuring of government in my lifetime and it 
does concern me that we do not really know how it is going to 
come out on the other side. We discussed this the other day, so 
that is no surprise.
    Again, thank you for being here and I appreciate your time. 
Also, like Senator Lieberman, I am a former Attorney General of 
my State and I know that we both share special concern for 
State and local government, State and local law enforcement and 
other agencies who are partners in this, and you have 
acknowledged that as we talked before and in some of your other 
statements that have been prepared for today. I appreciate 
that.
    I just look forward to working with you in this endeavor 
and look forward to working with this Committee during this 
term of Congress.
    Chairman Collins. Thank you. Senator Bennett.

              OPENING STATEMENT OF SENATOR BENNETT

    Senator Bennett. Thank you, Madam Chair, and I add my 
congratulations to you on your rapid ascension from staffer to 
chair---- [Laughter.]
    With a couple of elections thrown in between that helped 
that process.
    Governor and soon to be Mr. Secretary, I also will tell you 
of my determination to vote for you, both in the Committee and 
on the floor today if we can get the rule set aside to get you 
confirmed by the close of business. You have seen a little bit 
of a replay of previous debates within this Committee prior to 
the passage of the legislation and people are trying to remake 
points that they made prior to the passage of the legislation, 
perhaps in hopes of reopening the legislative statement and 
trying to win fights that they lost last time.
    The one thing that I would say in this opportunity to speak 
through you and through this hearing to the American people is 
that all of us need a significant cultural change. We thought 
as a Nation that we were safe between two oceans. We found out 
on September 11 that we were not.
    The inertia of the old way of doing things will be 
enormously difficult to change. When people talk to me about 
the inertia of the civil service, they usually talk about the 
inertia at rest. A body at rest tends to stay at rest until 
moved upon by an outside force. My experience is that the far 
greater inertia is the inertia of motion. A body in motion 
tends to stay in motion and in the same direction unless there 
is some sort of outside force exerted upon it.
    You are taking upon yourself the challenge of exerting an 
outside force on the inertia of motion in a whole plethora of 
agencies where the culture is, the only thing they like better 
than things the way they are is things the way they were. To 
get them all together in the same direction, in a new direction 
that will challenge the culture of complacency that existed in 
the government, in the country as a whole, in States, local 
communities, first responders, everybody used to doing business 
the way they had always done business, is a challenge that 
will, frankly, extend beyond your tenure. All you can do is the 
very best you can to make the first changes in the outside 
pressure to change the inertia and get things going in the same 
direction.
    We in the Congress love inertia. We are firmly wedded to 
the 19th Century way of doing things. We think it is just 
wonderful. We have got to face the challenge of how we 
reorganize ourselves around this new circumstance. It is not a 
new circumstance, it just came newly to our awareness on 
September 11.
    So as we address the question of how the Congress is 
organized, about how many committees you have to testify 
before, about how many people will claim jurisdiction over how 
many parts of your Department, we need to recognize the whole 
new culture of the world in which we live. Americans are not 
used to living in a society that is under threat. It is going 
to take us a while to get to understand that.
    People say this is the most dramatic and far-reaching 
reorganization since the reorganization of the entire defense 
and intelligence establishment at the end of the Second World 
War. The Defense Department still did not function properly 
until after the passage and absorption of the lessons of the 
Goldwater-Nickles Act some 20-odd years after the creation of 
the Department.
    I hope we can do better than that. I hope we can change the 
inertia faster than that. But the first responsibility to exert 
the first force on the inertia of motion falls to you, and 
instead of complaining about this or that that we didn't get 
when we tried to create the Act, we should all, regardless of 
party, regardless of experience, recognize the new culture that 
we face and do our best to join with you to bring some outside 
force to bear on the inertia of motion to try to cause things 
to be done a little differently.
    I congratulate you. Thank you for your willingness to 
accept what some evenings will seem like a very thankless task 
as you drive home in the dead of night and wonder, ``Why in the 
world did I ever agree to do this?'' But it is because of your 
willingness to do this and other Americans' willingness to do 
this that this country moves forward in the right direction, 
and we are honored and blessed by your willingness to undertake 
this assignment.
    Chairman Collins. Thank you, Senator Bennett. Senator 
Akaka.

               OPENING STATEMENT OF SENATOR AKAKA

    Senator Akaka. Thank you very much, Madam Chairman. In the 
interest of time and per your request, I ask that my longer 
statement be placed in the record.
    Chairman Collins. It will be, without objection.
    Senator Akaka. Madam Chairman, I want to congratulate you 
for your ascension to the leadership of this Committee and I 
want to wish you well and tell you that I am looking forward to 
working with you.
    Chairman Collins. Thank you.
    Senator Akaka. Governor Ridge, I am so glad to have you 
here this morning. I offer my sincere congratulations to you on 
your nomination to be Secretary of the Department of Homeland 
Security. You and I served together in the House and we did a 
great job there. I congratulate you and thank you for your 
service there and your future service.
    I was pleased to meet with you last week to discuss the 
future of the Department and I thank you for your time. As I 
told you, as far as I am concerned, your temperament is right 
and you are the right man for the job. You have my support.
    I want to share with you four concerns. First, the cost of 
creating this new Department cannot be at the expense of our 
fundamental freedoms and I urge you to take every precaution to 
uphold the rights of citizens.
    Second, we cannot afford to lose the critical non-homeland 
security missions of the agencies being merged into the new 
Department. For example, the Office of State and Local 
Coordination should rationalize and simplify Federal, State, 
and local coordination for all emergencies and disasters. There 
is a clear need for this, as I hear from officials in Hawaii 
who are unsure of whom to contact or what programs are 
available as they realign their natural disaster and terrorism 
response systems.
    Third, as we further protect America by reorganizing the 
government, we must not overlook the fundamental rights of the 
Federal employees, as Senator Voinovich just noted. The 
Department should not be used as a vehicle to advance untried 
management initiatives nor erode the rights currently afforded 
to Federal workers. They deserve the right to collective 
bargaining, a fair grievance system, equitable pay and 
protection from retaliation for disclosing waste, fraud, and 
abuse. I urge you to ensure that Federal employees actively 
participate in the development of any new personnel management 
system adopted by the Department
    My fourth and final concern is shared by many Americans. In 
the aftermath of September 11, there is a strong sense that 
there was a collective failure to respond to intelligence 
reports suggesting threats against America. In creating this 
Department, I think Congress is sending a clear message to you, 
as the one who is in charge of ensuring not only an assessment 
of the threat, but the reaction to it. We do not need another 
agency to analyze the danger. We need an agency to understand 
and respond to domestic dangers.
    Governor Ridge, as I said, you have a huge task before you. 
I commend you for accepting the tremendous responsibility of 
leading this new Department. I look forward to working with you 
and my colleagues in protecting the people and assets of our 
great country. I wish you well, and God bless you.
    Chairman Collins. Thank you, Senator. Senator Coleman.
    [The prepared statement of Senator Akaka follows:]
                  PREPARED STATEMENT OF SENATOR AKAKA
    Thank you, Madam Chairman.
    Governor Ridge, I offer my sincere congratulations on your 
nomination to be Secretary of the Department of Homeland Security. You 
and I served together in the House of Representatives, and I want to 
thank you for your continued service to our country. You have an 
enormous and historic task before you in leading this new Department. 
Although I voted against the Homeland Security Act for several reasons, 
I want you to know that I stand prepared to help you as much as I can 
to ensure the creation of the new department enhances our security. I 
was pleased we got together the other day to discuss the future of the 
department.
    I want to raise four concerns in my opening remarks.
    First, the cost of creating this new department cannot be at the 
expense of our fundamental freedoms. The Department's mission to help 
prevent--protect against--and respond to--acts of terrorism is clear. 
To accomplish these goals, the Department plans to collect, coordinate, 
and store vast amounts of personal data.
    Legitimate fears have been raised that the price of security may be 
our constitutional freedoms. Those freedoms are essential to the 
preservation of our democracy. I urge you to take every precaution to 
uphold the rights of citizens.
    Second, we cannot afford to lose the critical non-homeland security 
missions of the agencies being merged into the new department. I am 
particularly concerned that resources going to first responders, 
including the Federal Emergency Management Agency and the Coast Guard, 
may be sacrificed.
    This is not a zero sum game. Enhancing traditional missions will 
also enhance domestic security. For example, the Department's Office of 
State and Local Coordination should rationalize and simplify Federal, 
State, and local coordination for all emergencies and disasters. There 
is a clear need for this as I hear from officials in Hawaii who are 
unsure of whom to contact or what programs are available as they 
realign their natural disaster and terrorism response systems.
    Third, as we further protect America by reorganizing the 
government, we must not overlook the fundamental rights of our Federal 
employees, who will staff this new agency.
    The Department should not be used as a vehicle to advance untried 
management initiatives nor erode the rights afforded to Federal 
workers. They deserve the right to collective bargaining, a fair 
grievance system, equitable pay, and protection from retaliation for 
disclosing waste, fraud, and abuse. These rights complement our ability 
to safeguard the country. Federal managers need the skills--and 
training to acquire new skills--to effectively carry our the merging of 
so many agencies and accompanying personnel changes.
    As you stated in response tot he Committee's questionnaire, ``the 
focus of the new personnel system of the Department of Homeland 
Security should be on putting the right people, in the right jobs, with 
the right pay and incentives to ensure they are the most effective 
government employees they can be.''
    I have a slightly different expression which I used in testimony 
before the National Commission On The Public Service: ``A strong 
workforce comes from having the right people with the right skills in 
the right place at the right time. Only then will government operate in 
an effective, efficient, and economic manner.'' I am sure you will all 
agree with me on that as well.
    In addition, the right solution for civil service reform will 
require strong leadership and must complement the Federal merit system.
    I urge you to ensure that Federal employees actively participate in 
the development of any new personnel management system adopted by the 
Department. With about half of all Federal employees eligible for 
retirement over the next 5 years, employees transferred to the new 
department must feel secure in their work environment. Otherwise, we 
can expect a sizable number of them to choose retirement over 
employment.
    I share my fourth and final concern with many Americans. In the 
aftermath of September 11, there is a strong sense that there was a 
collective failure to respond to intelligence reports suggesting 
threats against America. The House and Senate Joint Inquiry into the 
Terrorist Attacks of September 11 found that these reports ``did not 
stimulate any specific Intelligence Community assessment of, or 
collective U.S. Government reaction . . .''
    In creating this Department, I think the Congress is sending a 
clear message that you are in charge of ensuring not only an assessment 
of the threat, but the reaction to it.
    It should not be the responsibility of the directors of the FBI or 
the CIA, although their agencies will be involved.
    It is the Department of Homeland Security which must follow up on 
reports and ensure the appropriate response.
    We do not need another agency to analyze the danger. We need an 
agency to understand and respond to domestic dangers.
    Governor Ridge, we have a huge task before us. Again, I commend you 
for accepting the tremendous responsibility of leading this new 
department; and I look forward to working with you and my colleagues in 
protecting the people and assets of our great country.
    Thank you.

              OPENING STATEMENT OF SENATOR COLEMAN

    Senator Coleman. Thank you, Madam Chair. It is a great 
pleasure to be here, my first Committee meeting with you. I 
join with others in applauding you for your leadership in 
scheduling this hearing so quickly. We should move on with this 
nomination quickly. We should get it done. America needs it. 
And I will be with you, Governor Ridge, and look forward to 
working with you.
    I also ask that my prepared remarks be placed in the 
record.
    Chairman Collins. Without objection.
    Senator Coleman. Just let me raise two issues. The Governor 
and I had a chance to discuss these yesterday. Before the 
opportunity to serve here, I spent 8 years as mayor of St. 
Paul. I have a deep appreciation of the role of first 
responders, police, fire fighters, emergency medical service 
personnel, and others in providing defense of our Nation. 
Homeland defense is what it says it is. It is not Washington 
defense and it is not Federal defense. It is homeland defense.
    Shortly after September 11, the Nation's mayors got 
together, and it was fascinating to me that the biggest concern 
was not necessarily about money--for mayors it is almost always 
about money--but it was also about communication. It was about 
those at the Federal level having a relationship with those at 
the bottom of the political food chain, having an understanding 
of what is going on at the local level, and getting the 
information to the local level so those on the front line of 
homeland security can do their job well.
    I have no doubt that Governor Ridge understands this. He 
has served at the State level. He has worked hand-in-hand with 
those at the local level. If we can understand that the things 
we pass here, whether it be financial resources or even things 
that we do in terms of information, if we can do a better job 
of connecting with those at the local level, America will be 
more secure.
    The next act of terrorism--unfortunately, everything I hear 
suggests there will be a next act of terrorism--will test the 
resolve of this Nation and our ability to respond. Governor 
Ridge, I think America and our country has great leadership 
with you at the helm of the Department of Homeland Security and 
I am very confident that we will do the best we can do. I look 
forward to working with you.
    [The prepared statement of Senator Coleman follows:]
                 PREPARED STATEMENT OF SENATOR COLEMAN
    Madam Chairman, Senator Lieberman, I am honored to be with you here 
today. This has been an incredible journey for this Senator from 
Minnesota--and today, in attendance and participating in my first 
hearing in the U.S. Senate, I continue to be humbled and honored.
    Today, we sit on the threshold of change far greater than any we 
have witnessed in our lifetime. Madam Chairman, Senator Lieberman, 
Members of this Committee--the importance of moving quickly to confirm 
the nomination of Tom Ridge as the Secretary of Homeland Security 
cannot be overstated.
    I applaud you for your leadership in scheduling this important 
hearing.
    Prior to my service here in the U.S. Senate, I served 8 years as 
the Mayor of Saint Paul, Minnesota. In this role, I came to understand 
the unique and critical role of our Nation's public safety personnel in 
the defense of our Nation.
    As a former Mayor, I understand that the challenge facing our local 
units of government isn't a lack of commitment or qualified people to 
help us to defend our homeland. The challenge facing them is all too 
often a function of a lack of coordinated Federal, State, and local 
resources.
    Shortly after September 11, I met with other mayors from across the 
Nation in Washington, D.C. as part of the U.S. Conference of Mayors 
meeting to address the challenge of terror in America.
    Without question, the number one issue that concerned all of us 
wasn't just money--it wasn't just resources--it was also communications 
and coordination.
    Governor Ridge, during his tenure, has shown that he heard the 
concerns of mayors by working with local units of government to 
communicate--and to fight hard to make sure important resources made 
their way to the local level.
    We have, rightly so, invested critical dollars into the defense of 
our Nation. The passage of the Homeland Security Act last year, which 
established the creation of the Homeland Security Department, was a 
historic moment in our Nation's history.
    This department must find ways to use the vast resources of this 
Nation--the dollars, the people, and the infrastructure--to defend our 
shores from the villains of the world who would, and have, killed our 
innocents--attacked our liberty--and seek to rob us of our freedoms.
    I am so pleased that Governor Ridge will be the person who will 
lead our Nation through these troubling times as the Director of the 
Homeland Security Department.
    I know Governor Ridge. He has a history of leadership representing 
the State of Pennsylvania as a Member of Congress, and as Governor. 
Yesterday, I had the opportunity to visit with him. I shared my 
perspective as a Mayor on the situations our Nation has been through, 
and being a Governor, he understood. Together, we discussed the 
importance of having State and local entities that are prepared and 
ready to assist their communities in a time of need.
    Since President Bush requested Governor Ridge's service to the 
Nation as leader of our efforts to reorganize our government to 
effectively battle the forces of terror, he has made great strides 
towards making our Nation safer and more secure.
    I am so appreciate of the understanding that Governor Ridge has of 
the unique role of local governments in making the efforts of the 
Department of Homeland Security successful.
    Important resources must make their way from the appropriations 
bills we pass--to the local units of government that need them to 
protect our Nation. Our first defense is our best defense--and those 
defenses are our Mayors--our Fire Chiefs--our Police Chiefs--and the 
men and women who serve our Nation in the uniform of police and fire 
and first responder.
    Governor Ridge understands that nothing we do in Washington can 
replace the knowledge of local communities to best defend themselves.
    And, the safer and more prepared our local communities, the safer 
and more prepared is America.
    American cities and their leaders need funding for more training--
more equipment for their personnel--and adequate facilities to care for 
victims of potential acts of terror.
    The next act of violence against our Nation will test our ability 
to respond and manage the crisis brought about by the cowardice of 
terrorists.
    We need a Nation prepared--and a Nation united.
    Governor Ridge has shown that he can bring us together to be better 
prepared to not only respond to terror--but to work hard to stop it 
before it begins again.

    Chairman Collins. Thank you. Senator Lautenberg.

            OPENING STATEMENT OF SENATOR LAUTENBERG

    Senator Lautenberg. Good morning. This is our first time to 
meet, Governor, and I look forward to seeing you at work, doing 
the job, the task that you have been assigned to with the full 
confidence that it is going to be done well.
    Madam Chairman, if they are not contradictory terms, we 
thank you for getting this hearing underway and for the 
opportunity to join this Committee. You have an important work 
schedule ahead of you and for all of us, and we are grateful 
that you are going to do it. This Committee has a reputation 
for bipartisanship and I hope that the Majority and the 
Minority will be able to continue working in that fashion.
    I am forced to make reference to a couple of remarks that 
have been made about the Senate liking inertia, and I take it 
from the distinguished Senator who works very hard that you 
could not get votes for inertia around here, let me tell you. 
There is a lot more, really, and I know that it was said in 
jest.
    The other thing, on a personal basis, was that one 
Senator's opinion was that everybody in the Senate was looking 
perhaps at the Presidency one day. Well, I can just say this. I 
want to take myself out of it. [Laughter.]
    A few more terms in the Senate will satisfy me. [Laughter.]
    The subject is one that all of us are focused on and have 
to pay attention to, hear the concerns of our constituents 
coming from New Jersey, Governor Ridge, as you know, because we 
are neighbors and because you are so up to date on what the 
aftermath of September 11 was.
    I was the Commissioner of the Port Authority before I came 
to the Senate, and that icon of power and responsibility, 
economics and finance, was torn apart in front of our eyes, an 
almost unbelievable circumstance. And the impact left a wound 
that will take many years--decades--to repair.
    So what needs to be done is to take a bunch of disparate 
elements, and I say the word without criticism, disparate, 
because the assignments are so different, and bring them 
together under your leadership, and I believe that you are 
going to be able to get that done.
    The one thing that has to happen, it has been mentioned, 
Senator Durbin and others brought up, and that is that as we 
try to establish a cohesive, functioning unit, that we don't 
trample on people's rights, whether it be labor rights, civil 
rights, and so forth, and I am sure that with your experience, 
you will be conscious of that all the way.
    In keeping with the Chairman's request to make this short, 
I am going to do exactly that. I will close with one notion, 
and that is that the State of New Jersey, having lost over 700 
of its residents, an impact throughout our communities, not 
just the communities in the immediate region, because we are 
accustomed to long commutations in New Jersey. It is a crowded 
State, and finding places to live and places to work don't 
always work out to the best convenience. The economic impact, 
the emotional impact were all so severe.
    We have in New Jersey a fantastic facility if the 
Department of Homeland Security needs facilities where they can 
accommodate lots and lots of people, have research facilities. 
I am talking about the area around Atlantic City where we have 
our FAA research plants. There is some wonderful work being 
done, that has been done and completed there in aviation 
security in terms of things like bomb-proofing cargo containers 
and things of that nature, very much akin to the assignment of 
searching for and finding ways to fight this terrorist menace 
that we see, so I offer that as a suggestion. We have got 
airports and harbors and all of the good facilities necessary 
to accommodate it.
    I close with comfort that your experience as Governor, your 
commitment to the country augers well for all of us. I wish you 
success, and if there is any way that this Senator can be of 
help, and I am sure I speak for all of my colleagues, on an 
individual basis, I hope that you will call on me. I intend to 
call on you and offer services and to raise the questions that 
we would all like answered. I wish you well.
    Chairman Collins. Thank you. Senator Shelby, thank you for 
your patience.

              OPENING STATEMENT OF SENATOR SHELBY

    Senator Shelby. Thank you, Madam Chairman. I am glad to be 
here after 8 years on the Senate Intelligence Committee, and I 
will be brief.
    I am here to support Governor Ridge, both here and on the 
floor. I am also going to support you with appropriations, 
Governor.
    I have one quick observation. We have talked about this 
many times. I personally believe the success of homeland 
security will depend, for the most part, on what type of 
intelligence analysis center you put together. If we look back 
on all the failures in intelligence, it is the failure to share 
intelligence. You can put together here a fusion center where 
all of the intelligence comes in, where your people can analyze 
and then disseminate the intelligence.
    You can have all the people in the world. You can have all 
the resources in the world. But I believe if you don't do this, 
your mission will fail. We want you to succeed, you understand 
that, and I believe you will do something about it. Thank you.
    Thank you, Madam Chairman.
    Chairman Collins. Thank you, Senator Shelby.
    Senator Carper, we have about 1 minute left on the vote. We 
have called the floor, but please proceed.

              OPENING STATEMENT OF SENATOR CARPER

    Senator Carper. Thank you. Madam Chair, I am delighted to 
be here today for this coronation--rather, confirmation of 
Governor Ridge. [Laughter.]
    I, too, join my colleagues in congratulating you on your 
new position of leadership on our Committee. You have a tough 
act to follow, but I am confident that you are certainly up to 
that job and I look forward to working with you, just as I have 
now for 20 years with Governor Ridge.
    He and I, 20 years ago this month, along with Senator 
Durbin, were raising our right hands, took an oath of office to 
defend our country and constitution and joined the House of 
Representatives as part of the class of 1982. Before that, we 
served at the same time over in Southeast Asia for a while. I 
was privileged to help lead one of our Banking subcommittees 
with him during the time we served in Congress and to serve as 
members of the National Governors Association.
    A lot of people here said that you have their vote even 
before you open your mouth. I think if we are really your 
friends, given the magnitude of the job that you are 
undertaking, we should all object to your taking on this role 
because it is a tough one. But the President has chosen well 
and I think you have been well prepared by your life 
experiences, not the least of those being a husband and father, 
along with everything else that we have talked about.
    Should you be confirmed, and I am starting to think you 
just might be, even today, the tasks that you have before you 
are, indeed, daunting. Congress has given you a Department, at 
least on paper, that should be able to prevent and respond to 
terrorist attacks more effectively than our government can 
today or last year or the year before. We have authorized the 
transfer of dozens of agencies and tens of thousands of workers 
and outlined the skeleton of an organization that should be 
able to pull together under one roof information on threats and 
vulnerabilities and use that information to improve security 
and prepare our first responders.
    Very little of what we have outlined, though, will be in 
place on day one--this could be day one--and a number of 
outstanding questions remain. Will the Department have access 
to the kind of intelligence it needs? We have talked about that 
and others have expressed their interest, as well. Will the 
intelligence community be capable of doing what it needs to do 
to get the Department information? And will the administration 
and Congress be willing to provide first responders with the 
level of aid that they need?
    While it is early in the transition process, I do hope we 
can begin to find some answers to these questions today and 
look forward to your comments and statement in response to our 
questions.
    Both in this Committee and on the Senate floor, we had a 
healthy debate over the details of how the transition to a 
Department of Homeland Security should work. I know some of my 
colleagues are uncomfortable with some of what we have wound up 
with and they have indicated as much here. I have some 
reservations, too, that we have discussed. But having said 
that, I know we are ready now to put aside any disagreements we 
may have had and do what is right and in the best interests of 
our country.
    On a personal note, I again thank you for your service to 
this country on many levels. I thank Michele and your son and 
your daughter for their willingness to share with this Nation a 
very good man.
    Chairman Collins. Thank you, Senator Carper. The Committee 
will be in a brief recess.
    [Recess.]
    Chairman Collins. The Committee will come to order.
    I would like to call on Senator Dayton for any opening 
comments that he might have before we turn to the nominee.

              OPENING STATEMENT OF SENATOR DAYTON

    Senator Dayton. Thank you, Madam Chairman. Congratulations 
to you on your chairing this Committee. I look forward to 
serving under your leadership.
    I will have to leave shortly because I am going to a 
briefing with CIA Director Tenet regarding a CODEL with Senator 
Warner and Armed Service Committee members leaving tomorrow 
morning, but I have already expressed to the Governor my very 
strong support for his nomination. I commend you, sir, for your 
dedicated service to our country and your leadership. You have 
a Herculean task ahead of you. I have expressed some of the 
areas, such as INS, where I think that your leadership is going 
to be particularly important.
    I just wish you well and ask that you share with this 
Committee and with the Congress whatever needs you have and 
bring this together as rapidly as possible. If it is a new 
computer system that integrates all these agencies and 
divisions, whatever it is, please let us know. You have my full 
support.
    Madam Chair, that is all I have to say. Thank you.
    Chairman Collins. Thank you, Senator.
    Senator Carper. You are not prepared for that amount of 
brevity, are you?
    Chairman Collins. It was refreshing. [Laughter.]
    Governor Ridge, I know that Senator Specter and Senator 
Santorum hope to join you, but in the interest of time, we will 
proceed.
    I do want to explain that you have not been deserted by 
your Republican colleagues. There is a Republican conference 
going on. Senator Santorum is the chairman of that conference, 
so it is very hard for him to be in two places at once, but I 
know they would want me to ask you to proceed. So if you would 
please proceed with your opening statement after I administer 
the oath. Our Committee rules do require that all witnesses at 
nomination hearings give their testimony under oath. If you 
would raise your right hand.
    Do you solemnly swear to tell the whole truth and nothing 
but the truth, so help you, God?
    Mr. Ridge. I do.
    Chairman Collins. Thank you.

TESTIMONY OF THOMAS ``TOM'' J. RIDGE,\1\ TO BE SECRETARY OF THE 
                DEPARTMENT OF HOMELAND SECURITY

    Mr. Ridge. Madam Chairman, Senator Carper, to you and to 
your colleagues and to the Ranking Minority Member, Senator 
Lieberman particularly, I want to thank you for moving so 
expeditiously to schedule this hearing.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Ridge appears in the Appendix on 
page 61.
      Biographical and professional information appears in the Appendix 
on page 71.
      Responses to pre-hearing and post-hearing questions appears in 
the Appendix on page 83.
---------------------------------------------------------------------------
    I also think it is very appropriate at the outset, having 
been a member of the Congress for 12 years to note the speed 
with which the Congress dealt with the legislation that created 
the Department of Homeland Security. It is referred to as an 
historic reorganizational effort, but the time frame in which 
the Congress deliberated, decided, and submitted the final 
measure to the President is also historic and I think Congress 
needs to be commended for that, as well.
    I think one of the reasons behind such a rapid assessment 
of need and creation of this Department was that the Congress 
and the executive branch realized that the current structure of 
our government limited our ability to protect America. Now, for 
the first time, we will have a Federal Department whose primary 
mission is protection of the American People.
    Chairman Collins. Governor Ridge, pardon my interruption, 
but Senator Specter has just arrived and I know he has a very 
eloquent introduction of you planned, so since you are right at 
the beginning, I am going to ask you to suspend and I will call 
on Senator Specter for a formal introduction that you deserve.
    Senator Specter. Thank you very much, Madam Chairman. I had 
arrived before 9 o'clock to undertake this pleasant opportunity 
to introduce one of America's really great patriots and a 
longstanding friend of mine, and then as the events of the 
Senate unfold, my schedule is somewhere between uncertain and 
catastrophic. [Laughter.]
    One of the facts of life is that when even a cabinet 
officer of this rank and a man of this distinction appears, the 
opening statements are interminable. [Laughter.]
    And then we have the votes which come and then we had two 
votes, and the two votes to be only one vote and a voice vote. 
So the scheduling is very difficult and I wish I had been here 
to precede the opening of what Governor Ridge has had to say, 
but I thank you, Madam Chairman, for permitting me to come in 
at this stage.
    Tom Ridge's career resume is the great American success 
story, very humble beginnings. A number of us share humble 
beginnings, but Tom's were truly humble. As he rose through the 
educational process, he went to Harvard and then Vietnam as an 
enlisted man, and then on to Dickinson Law School. He was an 
outstanding lawyer, could have had a very lucrative law 
practice at any stage of his career, especially now. He went on 
to be a prosecuting attorney, where great skills are acquired. 
In the criminal courtroom, there is an opportunity for analysis 
and questioning and organization and summation and case 
presentation, which is truly remarkable.
    I don't know if Governor Ridge has had my experience, but 
people sometimes say to me, what is the best job that you have 
had, D.A., Senator, what not? I always give the same answer. 
The best job is Assistant District Attorney because of the 
skills which can be developed there, and I see them in Governor 
Ridge as I have worked with him and watched his career.
    He was elected to the House of Representatives in 1982, 
then elected Governor of Pennsylvania and one of the Nation's 
most successful governors. If it weren't for Governor George W. 
Bush, I would say the Nation's most successful governor, but 
perhaps one of the two Nation's most successful governors. He 
was reelected in 1994, and then reelected in 1998 by a 
landslide.
    When President Bush called on him to take on the job of 
homeland security as an advisor, he said yes instantaneously 
and he left at the crest of the tidal wave in the Governor's 
office to come down to a very difficult milieu in this turf 
town. He has done very well in the kinds of considerations, the 
infighting, the razor blades on everybody's elbows around here. 
It is pretty tough on the Senate floor, but even tougher, I 
think, in the Executive Branch.
    He has moved over to take on the job as Secretary, and he 
does that as a call to duty. I know, because--I won't tell you 
why I know, but I know he has done this as a call to duty. He 
has got a road ahead of him where he is going to require the 
help of Madam Chairman, which you have pledged this morning, 
and all the Members of the Committee who pledged.
    And this business about being able to direct the analysis, 
I think, is critical to the future success of America, because 
I do believe, and I will not go into the details now, that had 
all those dots been put on the board, September 11 could have 
been prevented, and this is the man to do the job. But there 
has to be a little change, a little change in the statute which 
gives him the power to direct. He has got to be able to direct 
all of the intelligence agencies, the CIA and the FBI and the 
Defense Intelligence Agency, he has got to be given budget 
authority.
    If this man is given that authority, I think we can expect 
the best, not necessarily that it is going to be perfect. Who 
can tell in the age of terrorism? It is like finding a tiny 
needle in a gigantic haystack, but this man can do the job.
    I am really delighted to introduce him. It is a great 
moment for Pennsylvania, for Erie, Pennsylvania. Tom Ridge ran 
on a slogan, a guy nobody knows from a place nobody has ever 
been to. [Laughter.]
    Senator Specter. But Erie is very proud of him and 
Pennsylvania is very proud of him and America will be very 
proud of him. Congratulations, Tom.
    Chairman Collins. Thank you, Senator Specter. I would note 
that the Commonwealth of Pennsylvania has a strong tradition of 
producing outstanding public servants and we have two of them 
here with us today.
    Senator Specter. And now, Madam Chairman, I am going to 
resume my other role so I can question the nominee. [Laughter.]
    Chairman Collins. Governor Ridge, would you please proceed.
    Mr. Ridge. Thank you again. Once again, Madam Chairman, I 
think it is appropriate to commend Congress for pressing 
forward and taking the very bold steps necessary to establish 
the new Department of Homeland Security. Together, the Congress 
and the Executive Branch realized that the current structure of 
our government limited our ability to protect America in spite 
of the best efforts of the men and women working in these 
different agencies. So now, for the first time, we will have a 
Federal Department whose primary mission is the protection of 
our way of life of our fellow citizens.
    There is complete agreement between the President and the 
Congress about our responsibility as public servants to ensure 
the success of this new Department. We have worked together 
successfully during this past year, and I say as a result, 
America is a safer place today than on September 10, 2001. 
Together, we have taken steps to protect America, from pushing 
our maritime borders farther from shore and professionalizing 
airport screening, to developing vaccination plans and 
tightening our borders.
    Public servants at all levels of government, private sector 
employers, companies, and citizens all across the United States 
have changed the way in which they live and work in a unified 
effort to improve our security since the September 11 attacks. 
Yet, in spite of all that has been achieved, we are only at the 
beginning--let me say that again. In spite of everything we 
have done, we are only at the beginning of what will be a long 
struggle to protect this country from terrorism.
    Terrorism directly threatens the foundation of our Nation, 
our people, our freedom, our economic prosperity. We face a 
hate-filled, remorseless enemy that takes many forms, hides in 
many places, and doesn't distinguish between innocent civilians 
and military combatants.
    While much has been accomplished, there is much more work 
to do. Our country is built from ingenuity and hard work. In 
spite of our success, we certainly can't rest upon it. We will 
and must stay focused. We will and must stay vigilant.
    With your help, with the direction provided by the 
President's National Strategy for Homeland Security, I 
certainly believe we are up to the task. The strategy provided 
in the President's National Strategy will help organize and 
mobilize the Federal Government, in partnership with the States 
and local governments, as well as the private sector, behind a 
three-part mission: Prevent terrorist attacks, reduce our 
vulnerability to those attacks, and minimize the loss of life 
and maximize the speed with which we recover from an attack.
    The Secretary of the Department of Homeland Security is 
only one individual who, without the support of the dedicated 
men and women who go to work every single day in the 22 
departments we are talking about, many of them who risk their 
lives daily, will not succeed. Should I be confirmed as the 
Secretary of the Department of Homeland Security, and after the 
many kind words today I am fairly optimistic, at least I am 
hopeful, I will go to work every morning knowing that new 
funding, technology, equipment are important, but no more so 
than the people who willingly serve and have been serving in 
the agencies and units that make up this new Department.
    We must not forget the enormity of our task or their task. 
This is the largest and most significant transformation of 
government in over a half-century, as your colleagues have 
mentioned. We are not naive to the challenges of merging 22 
separate work cultures, operating procedures, and management 
procedures into one comprehensive organization.
    The new Department will not, as has also been observed by 
Members on both sides of the aisle, the new Department will not 
in and of itself be able to stop all attempts by those who wish 
to do us harm. We must realize the value of cultivating 
partnerships, partnerships with Federal agencies, State and 
local government, the private sector, and the American people.
    As a former governor, I am keenly aware of the shared 
responsibility that exists and will continue to exist between 
the Federal, State, and local governments for homeland security 
to be effective. One of the fundamental principles we have 
operated under during my tenure as the Assistant to the 
President for Homeland Security I think sums up our basic 
challenge. When our home towns are secure, our homeland is 
secure.
    I am pleased to report that all 50 States and the 
Territories have appointed Homeland Security Advisors, that 
they participate regularly in meetings at the White House, and 
in bimonthly conference calls with the Office of Homeland 
Security. We have, for the first time, created a single entry 
point to address many of the homeland security concerns of our 
governors and mayors and local officials.
    We recognize again that in spite of that, much more needs 
to be done. We recognize that State and local governments must 
be engaged. They must be supported. We must develop and sustain 
new channels of communication and partnerships with private 
sector organizations. The new Department must provide clear, 
concise, scientifically sound, and easily accessible 
information so American citizens can be prepared in the event 
their community is affected by a terrorist act.
    To accomplish this mission, the new Department of Homeland 
Security will effectively refocus and reorganize the functions 
of its 22 agencies into one coherent organizational structure. 
Now, as you all know, the Department will include four 
directorates, Border and Transportation Security, Information 
Analysis and Infrastructure Protection, Emergency Preparedness 
and Response, and Science and Technology. The Coast Guard and 
Secret Service will retain their independence and play key 
roles in supporting all of these critical missions. I would 
like to just share with you briefly a sense of how these four 
directorates will support the overall mission of protecting the 
homeland.
    America has historically relied on two vast oceans and two 
friendly neighbors for border security. Our country has long 
cherished its identity as a Nation of immigrants. However, the 
sheer volume of those wishing to enter our great country, 
coupled with the burden of processing all the information that 
is associated with that, without the ability to quickly garner 
relevant information about these individuals from Federal 
agencies, has severely taxed our border security apparatus as 
well as our immigration system. Even before September 11, it 
was apparent that this country could no longer determine who 
exactly was in our country and why were they exactly here.
    The new Border and Transportation Security Directorate will 
be organized to meet two strategic goals, as directed by the 
Congress, improving border security while at the same time 
facilitating the unimpeded flow of legitimate commerce and 
people across our borders. By separating the Immigration and 
Naturalization Service into one function for enforcement and 
one for services, we can greatly improve services for 
applicants and be in a much better position to ensure full 
enforcement of the laws that regulate the flow of immigrants 
into our country.
    The integrity of our borders goes hand-in-hand with the 
security of our transportation systems. Today, Americans, and 
for that matter the world, are much more mobile than ever 
before. We enjoy the freedom to go where we want, using the 
best transportation system in the world. This efficient 
transportation system is one of the engines that drive the 
economy, domestic and international. Shutting down that engine 
is not a viable option, but the destructive potential of modern 
terrorism requires that we rethink fundamentally the security 
of that transportation system, because virtually every 
community in America is connected to the global transportation 
network by seaports, airports, highways, railroads, and 
waterways.
    We have shown significant progress in securing our Nation's 
airports, thanks to the vision and support of the Congress of 
the United States, as many have commented before on both sides 
of the aisle. The Transportation Security Administration has 
hired, trained, and deployed a new professional Federal 
screening workforce that is focused on providing the highest 
levels of security without hindering our aviation system.
    We need to build on that success, but at the same time 
realize there is much more progress to be made in other modes 
of transportation. We must take steps to secure our Nation's 
ports. Programs like the U.S. Customs Container Security 
Initiative are helping nations spot and screen the highest-risk 
containers. Operation Safe Commerce focuses on business-driven 
initiatives to enhance security for the movement of cargo 
through the entire supply chain.
    And most recently, Congress passed the Maritime 
Transportation Security Act, which gives authority to the Coast 
Guard and Customs Service to develop procedures for screening 
and conducting port vulnerability assessments. Our goal must be 
to ensure that our seaports are open for the flow of goods and 
commercial traffic and closed to terrorists. We must enhance 
our risk management efforts and implement practices that allow 
for higher-efficiency screening of goods. Heightened security 
should not be an obstruction to legitimate and, hopefully, 
increased trade.
    We must realize, however, that our enemy will choose their 
targets deliberately based upon our weaknesses and our defense 
and in our preparations. So to counter this threat, the 
Information Analysis and Infrastructure Protection Directorate 
will, for the first time, bring together under one roof the 
capability to identify and assess threats to the homeland, map 
those threats against our vulnerabilities, issue warnings, and 
then provide the basis from which to organize protective 
measures to secure the homeland. This means that the new 
Department will participate at all levels with the CIA, the 
FBI, the NSA, the intelligence community generally, as well as 
other foreign and domestic intelligence sources to get the 
intelligence information we need to get the job done.
    More than just countering each identified threat, the 
Department will implement a long-term plan for protecting 
America's critical infrastructure network that encompasses a 
large number of sectors, ranging from energy and chemicals to 
banking and agriculture.
    In the past year, the Office of Homeland Security made this 
a top priority and began working with the Federal lead agencies 
for each of the 14 critical infrastructure sectors. This, too, 
however, is just the beginning. As information is collected and 
mapped and matched against critical infrastructure 
vulnerabilities, our top priority must be to get this 
information to those Federal, State, and local officials who 
represent the first line of defense against a terrorist attack. 
We must make it a priority to keep them informed, keep them 
aware, keep them engaged.
    Our Nation's three million fire fighters, police officers, 
and emergency service technicians are the first on the scene in 
a crisis, and as we all know, they are the last to leave. They 
are living proof that homeland security is a national, not just 
a Federal, effort. We must give these brave men and women all 
the assistance and support we can, as well. We will build on 
the strong foundation already in place with the Federal 
Emergency Management Agency, which for decades has provided 
command and control support and funding support in disasters, 
whether caused by man or Mother Nature.
    The new Emergency Preparedness and Response Directorate 
will consolidate at least five different Federal response plans 
into one genuinely all-hazard plan, the Federal Incident 
Management Plan. This will eliminate the artificial distinction 
between crisis management and consequence management.
    In a crisis, the Department will, for the first time, 
provide a direct line of authority from the President of the 
United States to the Secretary of Homeland Security to a single 
on-site Federal Response Coordinator. In doing all this, we 
will build the capabilities for a proactive emergency 
management culture, one that is well planned, one that is well 
equipped to not just manage the risk, but it is obviously our 
job to reduce the risk, as well.
    We must also realize that our Nation enjoys a distinct 
advantage in science and technology, and just as technology has 
helped us defeat enemies afar, so, too, will it help us to 
protect our homeland. Now, for the first time, the Science and 
Technology Directorate will harness America's ingenuity, its 
innovation, and its creativity. It will form new partnerships 
with the private sector and the academic community to develop 
and deploy homeland security technologies that will help us 
make America safer. This directorate will streamline access to 
technical resources of the private sector, academia, and the 
Federal Government for countering chemical, biological, 
radiological, and nuclear attacks.
    We also understand, as so many Members have mentioned in 
their opening statements, before any new homeland security 
technologies are deployed, we will ensure that we are upholding 
the laws of the land in protecting their freedoms as well as 
their privacy. Any new data mining techniques or programs to 
enhance information sharing and collecting must and will 
respect the civil rights and civil liberties guaranteed to the 
American people under our Constitution.
    Now, there are also two vitally important agencies that 
will report directly to the Secretary, the U.S. Coast Guard and 
the U.S. Secret Service. We all know that the men and women of 
the U.S. Coast Guard have been performing the mission of 
homeland security in a complex and dangerous maritime 
environment for more than 200 years. Every day since the 
September 11 terrorist attacks, the Coast Guard has pushed our 
maritime borders farther and farther from their shore.
    Let me say with confidence and conviction and be very clear 
about the direction that this office has received from the 
Congress of the United States. The new Department will not lose 
focus of the Coast Guard's other critical missions. From search 
and rescue, to anti-drug and illegal migrant patrols, to 
fisheries enforcement and aids to navigation, I will work 
personally to ensure that the Department continues to support 
the entirety of the Coast Guard's mission.
    The U.S. Secret Service, through its two distinct missions, 
protection and criminal investigation, is responsible for the 
protection of the President and the Vice President, the 
security for designated special events, and the investigation 
and enforcement of laws relating to counterfeiting, fraud, and 
financial crimes. The Secret Service is, and has been for 
decades, in the business of assessing vulnerabilities and 
designing ways to reduce them in advance of an attack, an 
expertise that will greatly benefit the new Department.
    And finally, I would like to reiterate one very important 
observation, because, again, Members on both sides of the 
aisle, Republicans and Democrats, in public meetings and 
private conversations have made it very clear that this needs 
to be a focus of my attention. No matter how this organization 
is structured, it will not achieve its mission without the 
dedication of its employees, just can't do it. No matter what 
the organizational chart looks like, you need to make sure that 
the dedicated men and women who have been doing these jobs for 
a long time, long before we thought we needed a Department of 
Homeland Security, get the support and the empowerment they may 
need to get the job done as well as they possibly can.
    The key to assuring the Department's focus throughout this 
very critical transition period will be the perpetual support 
of these men and women as they conduct their critical day-to-
day work. We will--I will emphasize this again--we will eagerly 
solicit and consider advice from the men and women who work in 
the new Department, not only about professional matters, not 
only about the new human resource management system, but also 
about how to improve day-to-day daily operations that they are 
involved in and have been involved in professionally for years, 
if not decades.
    And finally, I will insist on measurable progress from all 
the agencies and bureaus in the new Department. America must 
and will know what improvements have been made, what additional 
capacities have been built. We also need to know how effective 
we become.
    In closing, during our darkest hour on September 11, 
American spirit and pride rose above all else to unify our 
Nation. In the time since, we have fought a new kind of war, 
one that has a new kind of enemy, new methods, and new 
soldiers. It is fought on a new battleground, our homeland. I 
think our response has been strong, measured, resolute, and 
bipartisan. But nothing has been more profound than the 
creation of one Department whose primary mission is the 
protection of the American people.
    The Department of Homeland Security will better enable 
every level of Federal, State, and local government, every 
private sector employee, and ultimately every citizen to help 
us prevent terrorist attacks, reduce our vulnerability to 
terrorist attacks, and effectively respond and recover when 
these attacks occur.
    We all know that the road will be long and we all know it 
is an extraordinary difficult mission, but I think we all 
understand, and it is reflected in the observations made by men 
and women on both sides of the aisle, that we need to take on 
this task together. We know its complexity. We know its 
enormity. We know, as public servants, it is our mission to 
work together to defend our country, our fellow citizens, and 
our way of life. And I am absolutely convinced, Madam Chairman, 
that working with you, working with all of your Committee 
Members in the Congress of the United States, we can do just 
that.
    I thank you very much for the opportunity to appear before 
you at this confirmation hearing this morning.
    Chairman Collins. Thank you, Governor, for an excellent 
statement.
    Governor Ridge has filed responses to a biographical and 
financial questionnaire, answered pre-hearing questions 
submitted by the Committee, and had his financial statements 
reviewed by the Office of Government Ethics. Without objection, 
this information will be made part of the hearing record, with 
the exception of the financial data which are on file and 
available for public inspection in the Committee's offices.
    In addition, pursuant to the Committee rules, both Senator 
Lieberman and I have reviewed Governor Ridge's FBI file.
    The nominee has also met with Committee staff to discuss a 
variety of issues and all of this information will be placed in 
the record.
    Pursuant to Committee practice, however, there are three 
standard questions that I need to ask you. First, is there 
anything you are aware of in your background which might 
present a conflict of interest with the duties of the office to 
which you have been nominated?
    Mr. Ridge. None that I am aware of, Madam Chairman.
    Chairman Collins. Second, do you know of anything personal 
or otherwise that would in any way prevent you from fully and 
honorably discharging the responsibilities as Secretary of the 
Department of Homeland Security?
    Mr. Ridge. None I am aware of, Madam Chairman. No.
    Chairman Collins. And third, do you agree without 
reservation to respond to any reasonable summons to appear and 
testify before a duly constituted Committee of Congress if you 
are confirmed?
    Mr. Ridge. I am going to do my very best to respond to 
whatever requests I get from the Congress of the United States 
because we need to not only build this Department together, but 
we need to sustain and make sure that we work together to make 
it as effective as possible.
    Chairman Collins. Thank you. We will now turn to the first 
round of questions. We are going to do 6 minutes per Senator so 
that people don't have to wait for an interminable amount of 
time to ask Governor Ridge some questions.
    Governor, a task force of the Council on Foreign Relations, 
which was chaired by Senators Rudman and Hart, concluded last 
year that a year after September 11, America remains 
dangerously unprepared to prevent and respond to a catastrophic 
terrorist attack on U.S. soil. I know you are familiar with the 
report.
    Mr. Ridge. Yes, I am.
    Chairman Collins. In your opening statement, I believe you 
testified that you thought we were better prepared. Could you 
comment on the conclusion reached by this task force that 
America remains unprepared to respond to a large-scale 
terrorist attack?
    Mr. Ridge. Madam Chairman, I believe that the collaborative 
work undertaken by the executive branch and led by the 
President of the United States, as well as the Congress, has 
enabled this country since September 11, 2001, to effect 
significant change to--resulting in a far safer country than we 
were prior to that terrorist incident.
    There have been dramatic, significant, tangible, visible 
improvements at our airports.
    The Customs Service has taken upon itself several 
significant initiatives dealing with cargo security, to the 
extent that we are now in the process of developing protocols 
with foreign ports so that we can place Customs officials there 
with non-intrusive technology in order to inspect the cargo 
before it even gets on the ports.
    I have on a day-to-day basis witnessed the collaboration, 
the enhanced collaboration among all of the intelligence 
agencies within the Federal Government. The CIA and the FBI 
have worked and continue to work very closely with the Office 
of Homeland Security and I expect that that collaborative 
relationship will continue once the new Department is 
established, and we continue today as we prep for that new 
Department to work on memorandums of understanding to ensure 
that all the intelligence we need to get the job done will be 
made available to us.
    We see on a day-to-day basis two opportunities, two 
occasions on every single day with the intelligence community 
to get together twice a day to review the threats and to make 
assessments and decisions with regard to protective measures 
that we may have to take as a country in order to meet these 
threats.
    I see the enhanced awareness. We did not have to authorize 
it or legislate it, but I have visited enough border areas to 
know that the men and women of INS and Customs subsequent to 
September 11, their vigilance, without any encouragement from 
any of us, has been enhanced remarkably and they continue to 
find ways to work and collaborate together.
    I have seen literally hundreds, if not thousands, of 
demonstrations of new technologies, some of which we began to 
deploy within this country, and the list goes on and on and on. 
Every single day, either on the initiative of a citizen, a 
private sector company, the State, the governors, the mayors, 
and with the help and support and sometimes funding from the 
Federal Government, things are considerably different. They are 
better or safer.
    But having said all that, in spite of all those 
achievements, do we need to do more at the borders? You bet we 
do. Do we need to do more and focus on other forms of 
transportation other than airplanes? Yes, we do. Do we have to 
bring strategic focus to all this research and development 
money that is out there that can engage the private sector to 
develop the technology that we can deploy around the country? 
Yes, we do.
    So I have worked very closely and admire and respect 
Senators Hart and Rudman. They were one of the initial 
proponents of a new Department of Homeland Security. But we are 
better prepared. We still have, as I said before, a long 
journey to undertake, and every day, that is our mission, to 
make sure that when we turn off the lights and leave the office 
that night, that we are safer because of the work we have done 
in the Department of Homeland Security when we flip them on and 
enter the office in the morning.
    Chairman Collins. Thank you, Governor. You touched on, in 
your response, the issue of port security. When I assess our 
vulnerabilities, our ports strike me as being our greatest, 
still largely unaddressed, vulnerability. If you look at the 
facts that 90 percent of the world's cargo moves by container 
and the United States alone receives some 17 million containers 
per year, I think most of us, when we used to look at a large 
container ship coming into a port in Maine, for example, we 
thought, what a marvel of international commerce. Now, we look 
at that same ship and we wonder if one of the containers 
includes a dirty bomb or some other weapon that would harm our 
country.
    In Portland, Maine, alone, we have experienced a 43 percent 
increase in the number of containers coming into our ports, and 
in the past, the screening has taken place has been very minor, 
some 2 or 3 percent of containers, and it has largely taken 
place in the United States, not where the container first was 
shipped.
    In the recent report that I have referred to already, 
Senators Hart and Rudman make the point that we have hired some 
50,000 Federal screeners to be at our airports to check 
passengers and bags and cargo, but only the tiniest percentage 
of container ships, trucks, and trains that enter the United 
States each day are subject to examination.
    Could you describe some of the initiatives that you have 
underway and will be pursuing to increase the scrutiny of cargo 
containers? I am particularly interested in your efforts to 
secure and inspect containers at the point of origin. 
Furthermore, I would ask that you describe the level of 
international cooperation that you are getting and whether you 
are satisfied with it.
    Mr. Ridge. Thank you, Madam Chairman. First of all, I would 
like to just make an observation with regard to the statistic 
that says that, presently, two to three percent of these 
container ships and their cargo are inspected. I think that is 
fairly accurate. But what I think the American people should 
know is that it is--they are inspected not on the whimsy--it is 
a fairly sophisticated targeting system that the Coast Guard 
has developed over the past couple of years. I won't 
necessarily relate all the elements in the equation that leads 
them to conclude that it is in the country's interest to board 
the ship, sometimes not at the port of the United States, port 
of entry, but sometimes out at sea.
    So the 2 or 3 percent is fairly accurate, but it is not a 
random act, it is a specifically targeted effort once various 
kinds of information is secured and conclusions are reached 
about that ship, its crew, and the cargo.
    Your notion of the international dimension of commercial 
shipping was brought home to me very graphically when I boarded 
a cargo ship in the New Orleans harbor. It was interesting. It 
was registered in Singapore. The crew was from India. The cargo 
was American grain. And it was going to Japan. So at the 
outset, there are four countries that are interested in safe 
international commercial shipping.
    What the Office of Homeland Security did, with the support 
of the President and the leadership of the Customs Office, was 
recognize that we get about 70 percent of these shipping 
containers from 20 ports, mega-ports, around the world. The 
initiative of the Coast Guard, while going to these 20 ports, 
working with the foreign governments to get approval so that we 
could establish a protocol that enabled us to locate our 
Customs people in that port, locate some non-intrusive 
technology in that port. It included some regulations that 
require those who are going to be shipping to provide 
additional information, timely information to us before the 
containers and the cargo is even put on the ship.
    And so the Container Security Initiative, reaching out to 
the 20 mega-ports first, is a very significant initiative 
undertaken. They have reached agreements with 16 of the 20 
mega-ports, and once that is completed and while we are 
deploying people and technology, it will be the continued 
effort of Customs through the new Department of Homeland 
Security to expand that initiative at other ports around the 
world.
    The cooperation on a bilateral basis has been profound. I 
think the world understands that on some of these issues, it is 
not just an American interest at stake, it is an international 
interest at stake, and we find that the collaboration has been 
instantaneous. They have been very receptive and we plan on 
getting the 20 wrapped up and moving on shortly.
    Chairman Collins. Senator Akaka.
    Senator Akaka. Thank you very much, Madam Chairman.
    Governor Ridge, the Department of Defense established the 
Northern Command to defend the people and territory of the 
United States against external and other threats and to 
coordinate the provision of military forces to support civil 
authorities. Hawaii is not within the jurisdiction of the 
Northern Command. Instead, Hawaii falls within the jurisdiction 
of the Pacific Command.
    We discussed my concern that Hawaii not be ignored as the 
United States coordinates its homeland security policy. I am 
still worried about decisions being made without fully 
considering the factors affecting Hawaii due to its 
geographical location.
    Governor, what assurances can you give the people of Hawaii 
that the Department of Homeland Security is working with the 
Pacific Command to guarantee that Hawaii and the Pacific 
Territories receive the same military support and coordinated 
homeland security effort as the rest of the United States?
    Mr. Ridge. Senator, you were kind enough to raise that 
issue with me privately and I would like to express to you 
publicly my response to your very appropriate question. You are 
right, the State of Hawaii is outside NorthCom. That new 
command will add enormous value, I believe, to the Department 
of Homeland Security because of the opportunities it gives the 
new Department, working in conjunction with Secretary Rumsfeld 
and the North American Command, to do some scenario planning to 
determine in advance the timing and use of very specialized 
assets that only the Department of Defense has in times of 
emergency.
    I know that it is my responsibility, and I accept it, the 
same kind of assurance that we are able to give to the 
governors of the other 49 States and the Senators and the 
Congressmen with regard to the ability to access Department of 
Defense men, material, assets, whatever they might be. I need 
to work with the Department of Defense either through NorthCom 
or PacCom in order to give you and your fellow citizens of 
Hawaii the same assurance, and I pledge to you personally that 
I will do just that.
    Senator Akaka. Thank you very much. Governor, the homeland 
security grant programs appropriately require States to develop 
mitigation plans and to identify risks. One criterion used to 
grade State plans is the use of mutual aid agreements with 
neighboring and nearby governments. Hawaii was told that it 
needed to enter into such mutual aid agreements during a review 
of Hawaii's bioterrorism preparedness plans by the Department 
of Health and Human Services.
    FEMA has suggested that Hawaii seek agreements with Guam 
and other Pacific Territories and perhaps even California. 
However, Guam and the Pacific Territories rely on Hawaii for 
support, and any help from California is a minimum of 5 hours 
by air and up to about 7 days by boat. That is assuming that 
planes are flying and ships are sailing.
    I appreciate your willingness to identify Hawaii's unique 
needs because of its geographical location. Governor, what 
steps can be taken in the interim to ensure that Hawaii is not 
overlooked as areas in the contiguous United States enter into 
mutual aid agreements? How will you ensure that the State's 
applications are not penalized?
    Mr. Ridge. Senator, it may be just as simple a thing as to 
giving some folks a geography lesson. You do have some unique 
challenges because of the geography of the State.
    I am aware that on September 11, there were certain 
national decisions made, including closing down air traffic, 
that meant that for a period of time, even that kind of 
interaction based on a mutual aid pact would have potentially 
been precluded.
    So I think what we need to do is understand that while we 
go about designing formula, that we do need to drive some of 
these dollars to help build a national capacity to help us 
prevent, reduce, or respond to an attack. We need to understand 
that one size doesn't fit all. To call on friends in Hawaii to 
create mutual aid pacts with the adjacent States conceptually 
sounds like a pretty good idea, but in the practical world, we 
would have to make an exception to that rule and overcome that 
by being sensitive to your unique location.
    Senator Akaka. Thank you, Governor Ridge, I think you know 
that the final provisions included in the act on civil service 
and union protections were, and I mentioned this to you, a 
disappointment to me. I do not want to see the treatment of 
Homeland Security employees made into a political issue. I 
believe arbitrary treatment of these men and women will 
undermine the effectiveness of the new Department. I certainly 
hope that what I fear will not come to pass and that this 
administration and future administrations will not overstep 
bounds and overexert their authority.
    In particular, I know that you, Governor Ridge, have 
pledged to safeguard the civil service and collective 
bargaining protections of employees in the new Department. My 
question to you is, what will you do as Secretary to honor this 
pledge?
    Mr. Ridge. Senator, the Congressional intent with regard to 
the men and women that work in the new Department and the 
protection afforded them, a variety of civil service 
requirements, is embodied in the legislation. Whistleblower 
protection is embodied there, Hatch Act protection, veterans' 
preference, and it is clear that this is a point of view shared 
by bipartisan Members of Congress as well as the Executive 
Branch.
    You gave us flexibility in 6 of the 70 areas, but we read 
the law to say that there is flexibility in only 6 of the 70 
areas and all the other protections and all the other matters 
associated with civil service protection are inviolate. You are 
going to give us some flexibility in hiring, firing, 
discipline, appeals, and some others, but the balance of those 
protections are sacrosanct and not to be touched.
    Senator Akaka. Thank you for your response. My time has 
expired.
    Chairman Collins. Senator Levin, would you like to proceed 
now? We are doing 6 minutes per Senator for this round.
    Senator Levin. Thank you. Governor Ridge, as you know, I am 
very much interested in the question of analysis of 
intelligence and where that is going to take place. The 
Counter-Terrorist Center at the CIA receives perhaps 10,000 
pieces of intelligence a month. They have 1,000 to 2,000 
analytical products a month. But you are talking about foreign 
intelligence, I emphasize, and the analysis of it, not the 
collection of it and not domestic intelligence. So we are 
talking about the analysis of foreign intelligence.
    A couple hundred analysts work over there, and the question 
is whether you are going to attempt to duplicate that function 
of the Counter-Terrorist Center. Given the language creating 
the Department, what is your intention? How do you read that 
language?
    Mr. Ridge. Senator, it is not our intention to replicate 
the work that is going on at the CTC or within the CIA as it 
relates to foreign intelligence. It is our intention to use 
whatever foreign intelligence that may be generated by the 
intelligence community as it relates to a potential domestic 
terrorist attack as we go about our mission of matching threat 
information with potential vulnerabilities in the United 
States, using that information to make a determination as to 
whether there is a warning that needs to be rendered and using 
that information to make a decision as to whether additional 
protective measures need to be deployed.
    But we see the mission of this particular unit as narrowly 
defined and as getting access to all the information we need 
for the exclusive purpose of--for the primary purpose of 
protecting America's critical infrastructure.
    Senator Levin. Who has the primary responsibility, in your 
view of the law, to analyze foreign intelligence?
    Mr. Ridge. The CIA.
    Senator Levin. And then their analyses will be forwarded to 
you, is that correct?
    Mr. Ridge. That is correct.
    Senator Levin. And then you will determine what additional 
information you want, what additional analysis you either want 
from them or you yourself might make to supplement their 
analysis, as I understand it.
    Mr. Ridge. That is correct, Senator.
    Senator Levin. But the principal responsibility to analyze 
foreign intelligence from all sources will remain in the CTC?
    Mr. Ridge. That is correct.
    Senator Levin. I think it is very important that that be 
stated in the law or in a regulation, because we had that 
language exactly, almost verbatim what I just said, in our 
Governmental Affairs Committee bill. It did not end up in the 
final bill. Instead, the language becomes blurry. This gives 
you the authority, not the authority, the responsibility to 
analyze and it doesn't state that the principal responsibility 
to analyze foreign intelligence will be at the Counter-
Terrorism Center.
    So would you take steps, either by requesting amendments to 
this law or through Executive Order or through some regulation, 
to make it clear that the principal responsibility to analyze 
foreign intelligence will be at the CTC?
    Mr. Ridge. Senator, I think that is consistent with how the 
administration feels, certainly consistent with the history and 
the mission of that Department, and if further clarification is 
needed, we would obviously entertain--if the Congress felt 
further clarification is needed, so be it.
    Senator Levin. I can't speak for the Congress. I can speak, 
I think, for this Committee because we did adopt that language, 
and so if you will look at that language, and since you said 
that is what the intent is----
    Mr. Ridge. Senator, I will be pleased to look at the 
language.
    Senator Levin. All right, and to let us know whether or not 
a statement of that will be forthcoming, because otherwise, if 
responsibility is blurred, if we don't focus responsibility, we 
are not going to have accountability.
    Mr. Ridge. That is right.
    Senator Levin. One of the problems with the whole September 
11 issue is that there is no accountability for failure. No one 
was held accountable. I am not looking to hang anybody. I am 
looking for accountability in this system, and unless you focus 
the responsibility for the most critical issue, which is the 
analysis of intelligence, we are not going to have 
accountability, and that means we are going to have less of 
what we really need, which is the thorough analysis where 
people know that if there is a mistake made and a failure, that 
there could be accountability that results. If you will get 
into that, it would good.
    Mr. Ridge. I will, Senator. And just to share with you, I 
think the notion that you articulated is one that will guide us 
as we set up this new Department. Responsibility needs to be 
clear, direct, unmistakable, because accompanying that 
responsibility does come the accountability.
    Senator Levin. There is one other issue that I wanted to 
raise and that has to do with information which comes into the 
new Homeland Security Department which is unclassified. I am 
only talking here about unclassified information. Under the 
bill which was passed, anyone who divulges that information 
about critical infrastructure will be subject to a criminal 
prosecution.
    Now, there are real problems with that. That means you can 
get information that, for instance, a company is leaking 
material into a river that you could not turn over to the EPA 
if that company was the source of the information. You could 
not even turn it over to another agency. It means that a Member 
of Congress that finds out about that information through 
oversight cannot act on that information, even though it is 
unclassified information. We would be stymied from acting on 
it, making it public, for instance, or doing anything else in 
relation to information which comes to us, or comes to you----
    Mr. Ridge. Right.
    Senator Levin [continuing]. As a result of a voluntary 
submission. That is much too broad and there are some real 
dangers there because then companies could actually protect 
themselves from actions against them, either agency actions, 
Congressional action, or whatever, by simply giving you the 
information and at that point, that becomes a security blanket 
for the company.
    So we need you to look at that language. It is way too 
broad, both on the Freedom of Information Act side of it, on 
the whistleblower side of it, and on this language that I 
particularly made reference to, where a criminal penalty would 
be attached to the public disclosure of unclassified 
information where it was voluntarily submitted by a company. 
There could be some very unintended consequences there which 
could give protection for wrongdoing that threaten our health 
and environment which we should not be giving to wrongdoers.
    Mr. Ridge. It certainly wasn't the intent, I am sure, of 
those who advocated the Freedom of Information Act exemption, 
to give wrongdoers protection or to protect illegal activity, 
and I will certainly work with you to clarify that language.
    Senator Levin. Thank you.
    Chairman Collins. Senator Sununu.
    Senator Sununu. Thank you, Madam Chairman.
    Governor, could you talk a little bit about the 
organizational structure that you envision for the Department? 
Are you going to rely on field offices? Are you going to rely 
more on a centralized bureaucracy? And have any decisions been 
made about the distribution of potential field offices or 
regional offices and what kind of a role they would play?
    Mr. Ridge. Senator, we are obliged to, under the law, and 
very appropriately so because we are partners in constructing 
this agency, to return to Congress and consult with you about 
any reorganization efforts that we are going to undertake. We 
presently have under review a reorganization plan, but since it 
is still subject to Presidential approval before we submit it 
to you, I think it would be a little premature to share with 
you these preliminary discussions.
    Let me give you a couple ideas with regard to the 
principles that are guiding the reorganizational effort. The 
Congressional intent has been pretty clear with regard to 
stronger enforcement at the borders, looking at it and saying, 
how can we do a better job with the multiple tasks given to 
this agency at the borders. Congress has made it very clear and 
the President has embodied that notion in his national 
strategy, that whatever organization or structure you put 
together has to build and then sustain relationships with the 
State and locals as well as the private sector. We look at that 
and determine how we can organize this effort.
    We know that there is a requirement not only for us to 
share information at the national level, but at the end of the 
day, as so many Members have talked about, getting critical 
information down to the States and locals, to law enforcement 
and to other first responders is very important. We take that 
into consideration.
    And then everyone, again, on both sides of the aisle says 
that because there will be so much interaction between the 
Federal Government and programs and the Federal Government and 
dollars and the Federal Government setting standards, you need 
to have an organization that is sensitive to its outreach 
responsibility and sustaining that relationship.
    So those principles will guide us, Congressional direction, 
ability in sustaining the partnerships will be at the heart of 
what we do, and we hope to be able to come up and consult with 
Congress in the near future. I can't tell you----
    Senator Sununu. Do you have a timeline for the release of 
the reorganization plan?
    Mr. Ridge. I do not at this time. We are doing everything 
we can in the transition phase to accomplish the organization 
and submit it to the President for approval, but we are also 
simultaneously still recruiting some members of the management 
team. We would like to get their input on it, as well. So we 
are going to do it as quickly as possible, because the 
President has directed us to move as expeditiously as we 
possibly can, to attract the talent we need, and then to set up 
this organization and start making it work.
    Senator Sununu. We visited a little bit yesterday and I had 
some questions about information technology. I think the use of 
technology and different ways, new ways, is going to be 
critical to creating a standard for protection and for security 
and then building on it over time. I think technology is going 
to be one of the keys to continuing to improve our border 
security, continuing to improve the way we move goods and 
services across our international borders safely and 
efficiently, and the way that we identify and potentially track 
visitors to this country where we might have security concerns.
    Two questions. One, do you have an estimate of the needs, 
the financial needs for implementing a strong information 
technology system or information technology upgrades in the new 
Department? And two, we spoke specifically about the biometrics 
requirement and INS and do you have an estimate of what the 
cost for implementing that would be and whether sufficient 
funds have been appropriated to implement it?
    Mr. Ridge. First of all, Senator, we examined the 
technology budgets, the IT line items in the departments and 
agencies that are moving in under the new Department and we 
think there are sufficient dollars in existing appropriations 
to wire us together.
    It is interesting. The Congress in very specific language 
directed the Secretary to take--make a reasonable effort--I 
assure you it will be more than a reasonable effort--to make 
sure that as we pull these units together, that all the 
information they generate, much of which is relevant to other 
units' work, is wired together as effectively and as quickly as 
possible, and then to make sure that once we set up our own 
information infrastructure, that we tie it in to other agencies 
with whom we work.
    And to that end, we are working with Bob Mueller and the 
intelligence community to see how we can use technology that is 
out in the marketplace today to take what have heretofore been 
stovepipes, unique, centralized, rarely shared databases, and 
make sure the right people at the right time have access to 
them so they can pull relevant information out. So I think we 
have enough money to do that within the budget and we are going 
to proceed accordingly.
    The biometrics requirement that Congress imposed on the 
entry-exit system, it is difficult for us right now to estimate 
the cost. Again, our task is to do the best with the 
extraordinary amount of resources you have given us and I think 
the President, when we submitted the budget, and I was 
responsible for certifying the budget last February, there was 
almost a 100 percent increase in security dollars, from about 
$19 billion to nearly $38 billion. There was a substantial 
increase for INS.
    So, one, I can't give you a definite figure. Biometrics 
needs to be, will be a significant part of our entry-exit 
system. I just allude to the challenge we have, and I say this 
to my colleagues, we need to work this out.
    Ultimately, there needs to be an international standard, 
and we can just see it coming in our discussions with other 
countries. While we try to ramp up our entry-exit system, at 
the same time, we are going to work with as many, on a 
multilateral basis and a bilateral basis, to see if we can get 
international buy-in to a common standard, because I can 
envision a day in the not-too-distant future where we are 
requiring biometrics identification for people to come across 
our borders, and our friends and allies and others are going to 
require the same kinds of information as we visit their 
countries, as well. So we need to be mindful, I think, of 
establishing some international standards in this effort.
    Senator Sununu. Thank you, Governor. Thank you, Madam 
Chairman.
    Chairman Collins. Senator Durbin.
    Senator Durbin. Thank you, Madam Chairman.
    Governor Ridge, let me follow up on my opening comment 
about the role of the new employees in your agency, and 
particularly to follow up on something that has been referred 
to earlier, whistleblowers. Whistleblowers are a real pain for 
administrators, but they perform a valuable function. Were it 
not for whistleblowers in the FBI, one of whom was recently 
cited in Time Magazine as a Person of the Year, we might not 
know the details of the information that came out before 
September 11 and what we could have done to protect America.
    After September 11, there were two people who worked for 
the INS in Border Patrol, two agents, who went to the press and 
said that the statements made by many government officials 
about safety on our borders and security were misleading, that 
there were not enough agents on the Northern border protecting 
the United States from the infiltration of dangerous people. As 
a result of those public statements, these two Border Patrol 
agents suffered punitive actions by the agency, in fact, 
demotions and suspensions, because they blew the whistle and 
said we are not as safe as we should be. Were it not for their 
union fighting to restore their rights, that might have gone 
unnoticed, but the union stepped in.
    Let me ask you, at this moment in time, do you believe that 
this new law exempts your agency or changes in any way the 
general law or rule as to whistleblowers in the Federal 
Government?
    Mr. Ridge. I do not, and more importantly, I think there is 
specific language in the statute that reminds the Secretary and 
reminds everyone associated with the new Department that there 
shall be no reprisals for legitimate whistleblower activity. So 
I think it is not only understood, but I think it is 
affirmatively reinforced by the language of the law.
    Senator Durbin. In your earlier statement about the rights 
of the employees, you said those rights may not extend to 
questions of hiring and firing, if I am not mistaken. I don't 
want to put words in your mouth. But again, go back to this 
example I have used. Were it not for a union stepping in to 
protect these employees who blew the whistle on misstatements 
by the Federal Government and the lack of protection of our 
Nation, were it not for that union, those two employees would 
have probably suffered those consequences. So how will you 
protect your employees who exercise their whistleblower rights, 
then, from retaliation from your agency?
    Mr. Ridge. Well, first of all, I have pledged publicly and 
Congress has specifically directed, I think with very explicit 
language, that that historic protection is part of the work 
environment in the new Department of Homeland Security for all.
    Second, we are about to begin a process where we develop a 
new human resources management system and the Congress gave us 
the opportunity to do that and gave us a framework within which 
we were to do that. But we have begun just initial discussions 
with the representatives of organized labor and others, not on 
content, but on the process itself, to make sure that they are 
involved on the very front end of this deliberation, 
discussion, debate, negotiation, what have you.
    So we recognize our obligations under the statute. I say, 
from my experience as governor, dealing with about 80,000 State 
employees, most of whom were unionized, we had a, I think, very 
good day-to-day working relationship. We negotiated some 
difficult and challenging bargaining agreements, had enormously 
effective labor leaders. We were candid with one another. We 
got the job done, and I hope we develop the same kind of 
relationship with the people in this Department.
    Senator Durbin. And so you will protect the appeals rights 
of your employees if they exercise their rights?
    Mr. Ridge. Whistleblower is endemic. It needs to be a 
continuing part of the work environment of these men and women.
    Senator Durbin. Let me go back to the point raised by 
Senator Levin, too, on this FOIA question. It is understandable 
that if a private entity, a corporation, were to give you 
information that they believe is necessary for you to know to 
protect America, that there be some sort of protection there. 
But the law goes beyond that and suggests that once they have 
made the disclosure, even a disclosure of wrongdoing, perhaps a 
disclosure that has endangered the public health, once they 
have made the disclosure to your Department, they, in fact, are 
held harmless from civil lawsuits by the mere fact that they 
have made the secret disclosure to your Department.
    Are you concerned about what impact that might have on the 
redress which an ordinary citizen or a community might have in 
court, for example, an environmental disaster disclosed to your 
agency by a private corporation which is now indemnified from 
private and civil lawsuits because of that disclosure?
    Mr. Ridge. Senator, I am concerned with that potential 
outcome. I guess I am equally concerned about differing 
interpretations of the statute, which leads me to believe that 
one of the first responsibilities I have when we get this 
information analysis and infrastructure protection unit set up, 
even before then, then I need to come back to you and your 
colleagues like Senator Levin to get clarification that makes 
us both comfortable.
    Senator Durbin. I hope you will. I think it is an important 
topic and I am glad that Senator Levin raised it and I would 
like to follow it.
    The last one is the issue that I have raised to you time 
and time again that Senator Sununu mentioned, the 
interoperability of information technology. The INS today, as 
part of the Department of Justice, has utterly failed in 
integrating its information technology system with the FBI. It 
has resulted in some very terrible consequences.
    Now, INS is moving out of the Department of Justice into 
the Department of Homeland Security. My concern is that now 
they are getting further away from the agencies that they need 
to be integrated with and work with more cooperatively. Where 
is the authority that will bring together the Department of 
Justice, the Department of Homeland Security, the CIA, all the 
intelligence agencies to try to create something which I called 
the ``Manhattan Project,'' to break through this information 
technology barrier that seems to have stopped us, even since 
September 11, from achieving what we need to achieve in 
exchanging information?
    Mr. Ridge. Senator, you and your colleagues in Congress 
gave that specific task to the new Secretary and it is a task 
that actually was undertaken even in the Office of Homeland 
Security several months ago, not just in anticipation of the 
new Department, but in recognition that one of the big 
challenges we have in this country is not necessarily 
assimilating more information. We have got plenty of 
information. We just have heretofore been unable, not 
necessarily unwilling, but unable to connect it so that the 
right people had access to the right information on a timely 
basis.
    That will be one of the highest priorities within this new 
Department. It is a very high priority for the President and 
the administration as we set up a new Department, to bring it 
in immediately to the 21st Century to connect our own internal 
databases and then with those with the external agencies with 
whom we have to work, and it is a measure that, again, we have 
begun working on. We have done an inventory of who has what and 
what we need to put together. We think we have a way ahead 
where we don't need necessarily to design a whole new system, 
but there are commercial applications in the marketplace today 
that enable us to tie this together.
    It is also getting that information to consular offices 
necessarily, and some of this information is going to have to 
go international. It is a huge undertaking and I look forward 
to working with you to solving the puzzle. There are a lot of 
pieces of that puzzle we have got to put together.
    Senator Durbin. Thank you. I want to work with you. Thank 
you, Madam Chairman.
    Chairman Collins. Senator Carper.
    Senator Carper. Thank you, Madam Chairman.
    Governor, in your comments or your statement earlier, you 
touched on air security, and we are reminded of that every time 
we check in an airport and prepare to board an airliner. In her 
comments, our new Chair spoke to port security, something that 
is of interest to us in Wilmington, Delaware, as it is in any 
number of States.
    I indicated to you when we met earlier this week, and I 
thank you for the visit, but I indicated to you that a lot of 
us have interest in rail security, too, not just passenger rail 
security, but the rail security that involves the movement of 
freight throughout our 50 States. Regarding rail security, I 
believe you stated that the Transportation Security Agency is 
developing a proposal that would require transportation 
facilities to conduct vulnerability assessments and to develop 
security plans to address vulnerabilities.
    I am wondering, would such plans be required for all modal 
facilities, including aviation and highway facilities? Who 
would pay for these assessments and for these plans? Would the 
TSA be offering technical assistance or grants to assist 
facility managers and owners in preparing their plans?
    Mr. Ridge. Senator, that outreach to transportation in 
addition to airports has begun with Secretary Mineta and 
Admiral Loy at TSA, working with the Federal Highway 
Administration, working with the Federal Railway 
Administration, working with the Federal agencies that deal 
with mass transit, to begin the effort to identify 
vulnerabilities and best practices. Much of the--not all of the 
work has been done, but much of it has been done internally.
    I see as one of the critical functions of the 
infrastructure protection unit, the one unit we call IAIP, 
Information Analysis and Infrastructure Protection, consistent 
with the President's directive under his National Strategy, 
designed a national critical infrastructure piece around the 14 
sectors of the economy that we view as critical. Transportation 
is one, and there may be opportunities in the future, depending 
on need and priority, that the Federal Government may assist. 
Our Department will fund--work with TSA with Federal dollars to 
assist in doing these vulnerability assessments.
    Senator Carper. All right. Thank you. I have sort of a 
related question, if I could. In the case of Amtrak, as I 
believe you know, the railroad is in serious jeopardy of 
shutting down this spring unless we provide in the fiscal year 
2003 budget for Amtrak roughly $1.2 billion, a figure that does 
not include major spending on security. I certainly hope that 
the TSA is not poised to require Amtrak to prepare thorough 
security assessments and plans without some additional Federal 
support above and beyond the annual appropriation that we 
worked on just last night for Amtrak. I think to ask them to do 
more with respect to security without providing that additional 
funding is an unfunded mandate, and I would just ask for your 
view on that thought.
    Mr. Ridge. I know, Senator, you have, as well as your 
colleagues along the Northeast corridor, an interest in the 
continued viability of the railroad itself. That is an issue 
that we wrestled with back in 1983, and every couple of years, 
Congress has to wrestle with it again.
    I think there is a need for us to take a look at the 
legitimate security enhancements with Amtrak and, obviously, 
through whatever appropriation measure that the Congress may be 
supportive of in the future, hopefully you will be mindful of 
that, Congress will be mindful that that is an additional cost, 
and if you don't fund it, then we will have to work with you to 
find some other ways to help them on a priority basis deal with 
the most problematic vulnerabilities. I can't tell you what 
they are, but we need to do a vulnerability assessment and then 
set priorities and then go about addressing them.
    Senator Carper. If I could put a more human face on this, 
today, as people went to work throughout the country, hundreds 
of thousands of people went into New York through tunnels that 
are badly lit, badly ventilated, from which evacuation is very 
difficult.
    Under Baltimore Harbor, there is a tunnel, as I am sure you 
know, and a lot of passenger traffic passes under there, but a 
lot of freight traffic, as well, and a fire literally shut down 
the tunnel last year. It is over 100 years old. It is actually 
in quite similar condition to the New York tunnels. Literally 
not more than 100 yards from where we are sitting today, there 
is a tunnel that goes under the Capitol, through which hundreds 
of thousands of people pass every day.
    The rail security portion of Senator Hollings' National 
Rail Defense Act, I think it is called, S. 104, requires the 
Secretary of the Department of Homeland Security, soon to be 
you, to undertake a risk assessment of rail security threats 
and to come up with steps that railroads can take to protect 
their tracks, stations and rail facilities. The bill also 
authorizes, I think, about $500 million for the new Department 
to address rail security threats or to award grants to 
passengers and to freight railroads to implement the 
Secretary's recommendations.
    I am just wondering, what do you think of that approach, if 
you have had any chance to think of it at all?
    Mr. Ridge. First of all, Senator, in your question, you 
raise a couple of very important issues that we need to deal 
with nationally. One is you highlighted in your experience in 
this part of the country that there are some tunnels and 
bridges that are more susceptible of being used for 
catastrophic attack, and so we do have to set priorities around 
not only vulnerability, but consequences, as well, and that is 
whether it is a tunnel, a rail system, whatever. I mean, we do 
have to manage the risk and make decisions about the risk based 
on probability, vulnerability, and consequence.
    Having said that, I am not familiar with this legislation, 
but I do think that for a general rule of thumb, I think we 
ought to look to the private sector to absorb the expense of 
protecting their own infrastructure. They have a responsibility 
to their employees. They have a responsibility to their 
shareholders. They have a responsibility to the communities 
within which they operate.
    That is the general rule. That is not to say that there 
aren't exceptions. We did make an exception, a huge exception 
in aviation. I am not sure we can ever afford that kind of 
exception anywhere else in the private sector, but I think they 
just have to be reviewed on an ad hoc basis to see where the 
highest vulnerabilities are. The first general rule is that if 
it is owned by a private company, it should be--the expense 
should be defrayed by a private company.
    Senator Carper. Thank you. Thank you very much.
    Chairman Collins. Governor Ridge, while the exodus of 
Members may raise your hopes that the hearing is nearing an 
end, I am about to dash. Many of my colleagues do have some 
questions for you, but unfortunately, we have another roll call 
vote.
    Mr. Ridge. I understand.
    Chairman Collins. The Committee will stand in a brief 
recess.
    [Recess.]
    Chairman Collins. The Committee will come to order and the 
hearing will resume. Senator Coleman.
    Senator Coleman. Thank you, Madam Chair.
    Governor Ridge, in my opening comments, I talked about the 
relationship between the Federal Government and folks at the 
State and local level and we had a wonderful conversation about 
that.
    I know in the post-September 11 world and the development 
of the Department, you have been tapping into some of the 
resources of folks like the Conference of Mayors and the League 
of Cities. My question is, once the agency is completed, do you 
have any kind of structural ongoing means to make sure that 
local voice continues to be heard as policy is developed? What 
are your plans in that regard?
    Mr. Ridge. Senator, I think there will be several ways that 
we will, and I must say, should, continue to reach out to 
organizations that represent the governors, the counties, and 
the cities. The legislation provides for a State and local 
government coordinator. We think that is a critical addition 
to--the Congress actually added on, I think, to our original 
bill, that really creates an office within the Department to 
help continue to build on the relationships that we have built 
on through the Office of Homeland Security. So I think that is 
a very good starting point.
    It is also the place that, hopefully, with the support of 
the Congress, in response to a lot of concerns that Members 
have about where State and local governments go in order to 
access different funding programs available through the 
Department of Homeland Security, to the extent that the law 
allows, we would like to consolidate them there, and to the 
extent that the law doesn't allow it, we might come back to you 
and say, look, we would like to make it a one-stop shop. You 
have got fire grants, mitigation grants, and preparedness 
grants. You have got a lot of grant programs out there. We 
would like to make it a lot easier for local government, State 
government to access those dollars. So it is our intention to 
do that.
    We also continue to engage these organizations in the 
President's Homeland Security Advisory Council, their 
representatives, and it is a rotating membership. If you are 
the president of the League of Cities, the Conference of 
Mayors, the NGA, what have you, they continue to be a very 
important part of that organization. Right now, the Chairman is 
Governor Mike Leavitt and the Vice Chairman is Mayor Williams 
of Washington, DC, and then there are other State and local 
officials involved in that subcommittee.
    So again, national strategy, not a Federal one. Our 
partnerships with the States and the locals are critically 
important. Sustaining that outreach and working together on 
policy initiatives and the like will be critical to the success 
of our national effort.
    Senator Coleman. Thank you, Governor.
    Madam Chair, just one follow-up question. Governor Ridge, 
one of the other areas of concern is this issue of 
communications, which again, going back to my time as mayor, 
particularly in post-September 11, we had a lot of conversation 
about. Oftentimes, there would be an alert, there would be a 
notice of something happening at the Federal level and my folks 
at the local level, my cops and my police chief, folks in the 
mayor's office, the press would come to us and say, what is 
happening, and we couldn't tell them.
    Understanding that there may be security concerns and not 
everyone at all levels has the same level of clearance, how can 
we do a better job of making sure that those folks who are the 
voice of the people at the local level and who have the 
responsibility of dealing with problems at that local level, 
particularly in law enforcement, can be better tied into those 
things of which you are aware at the Federal level?
    Mr. Ridge. Senator, I think there are a couple ways we can 
go about answering that question. The first is making sure, and 
this is going to take some time, that people in a community 
where there is a Joint Terrorism Task Force understand that it 
is incumbent upon the FBI on a fairly regular basis, when they 
get some information relative to a community, they shoot it 
down to the FBI-directed Terrorism Task Force. I understand the 
organization includes local law enforcement and needs to 
include local law enforcement.
    Oftentimes, that information, it is really just for 
security--primarily law enforcement people and security people, 
ends up in the public domain and people are saying, ``What 
should we do about this?'' The answer is, it has been shared 
with the law enforcement community so they can do something 
about it. Let them do their jobs and that is not a concern of 
yours right now, hopefully ever.
    There is another level of advisory and information sharing 
that gives rise to the National Threat Advisory System, where 
the new Secretary will have the responsibility to raise a level 
of alert. And we need to have local law enforcement in the 
country generally better understand the purpose of the national 
alert and help them design procedures to respond to that alert.
    And to that end, the Office of Homeland Security and the 
FBI are in the process of developing a conference. We are going 
to bring in local law enforcement so we can talk about how we 
do a better job communicating advisories that the JTTFs operate 
on, what you need to do in the event of raising a national 
warning, what you should do in response to that, and then how 
we, long-term, can begin to do a better job of collaborating 
and sharing information, because in order for us to be 
successful, it is not just going to be the Federal Government 
sending down intelligence information, but we have 650,000 law 
enforcement personnel on the streets in time. We want them to 
send information back to us. So we still have our work cut out 
for us.
    Senator Coleman. Great. Thank you.
    Chairman Collins. Senator Specter.
    Senator Specter. Thank you very much, Madam Chairman.
    Governor Ridge, I begin on the critical question of the 
authority of the Secretary to coordinate all of the analytical 
materials, and I know that this is going to be a Presidential 
decision. I have had the opportunity to talk to President Bush 
about it on a number of occasions, including yesterday when he 
was traveling to Scranton, Pennsylvania. I filed an amendment 
to the Homeland Security bill, and when the House of 
Representatives left town, it was either a matter of passing 
the bill as was or delaying it over to this year, which would 
have been very undesirable. You and I talked about it that day, 
and as I said earlier, I talked to Vice President Cheney, then 
to President Bush.
    I know this is going to be a decision which is made at the 
Presidential level, but let me explore with you for a minute or 
two the various agencies and the good will which I know you 
enjoy at this time, but isn't there an institutional problem 
down the road when you don't have a really strong Secretary and 
you don't have the kind of congeniality which exists now with 
the Presidential appointees and the kind of work which is done 
together and the tradition of turf fighting. I think your 
statement about the only turf that is important is the turf of 
America.
    Why not give that strong hand to the Secretary, the one 
person who is going to have analysis under one umbrella? Let 
the CIA do their work in the field. You are not going to touch 
that. Let the FBI do their work in the field, the Defense 
Intelligence Agency. But when push comes to shove, if you need 
it, why institutionally shouldn't the Secretary have it?
    Mr. Ridge. Senator, right now, it is my belief, and I am 
grateful that you highlight the day-to-day collaboration on a 
personal basis between myself, George Tenet, Bob Mueller, and 
our respective organizations. I can't speak prior to October 8, 
but I can tell you, since I have had the opportunity to serve 
the President in this capacity, it is all encompassing. We 
share information on a daily basis and interact in our 
respective organizations, interact on a daily basis to the 
extent now twice daily, we all, our representatives convene to 
review the threat information today, monitor the threats from 
previous days. So we have on a daily basis two video 
conferences, CIA, FBI, other intelligence agencies, and the 
Office of Homeland Security. Likewise, we have the daily 
meetings with the President and the interaction between the 
organizations.
    Senator I feel that the language in the statute, and I know 
you have been very concerned about the access of this agency to 
all the information it needs to get its job done, is not 
limited in any way. It is so strong and creates such an 
affirmative obligation on the part of the intelligence 
community that we will get all we need for critical 
infrastructure protection purposes.
    There is a secondary benefit of having access to that 
information. I think, clearly, our analysts, who will be 
assigned--some of them will be assigned to work at the Counter-
Terrorism Center, some of them will be working with the FBI--
one of the unintended, very positive consequences of that 
working relationship is they will participate in the analytical 
work of these other intelligence agencies so that on an ongoing 
daily basis, we will have a considerable role, but not the 
primary role, in dealing with threat information.
    Senator Specter. Governor Ridge, thank you for the answer. 
You can't comment about what happened prior to October 8 and 
you can't comment about what is going to happen after Governor 
Ridge is no longer Secretary, but we will talk about it some 
more because I am going to introduce the amendment. It will 
come before this Committee. We can go into it in depth and we 
can hear from CIA Director Tenet and FBI Director Mueller.
    Let me move to another question which I have discussed with 
you before, and that is the labor-management relations. I 
appreciate your comment to me in our private section that you 
would be willing to sit down with Mr. Harnage and try to work 
through the concerns which labor has.
    As I have gone through and read the statute, the national 
security waiver is really to be exercised by the President. 
Now, I know that there is an exception in the Transportation 
Act for Admiral Loy to exercise the waiver which he has. But I 
think it is important that we talk about waiving existing laws 
under labor-management relations in existence for a long time 
that really go to the Presidential level, and I think it is 
vital that that national security waiver be maintained, but I 
think it really is a Presidential decision.
    Picking up what Admiral Loy did, where there was an effort 
to have collective bargaining with respect to the security 
screeners, at a time when the mood of the country is really a 
peacetime mood, there is no high alert at this moment, what is 
the difficulty--what would have been the difficulty in allowing 
those negotiations on collective bargaining to proceed without 
the exercise of the waiver which Admiral Loy brought into 
effect?
    Mr. Ridge. Senator, I believe that the Admiral, using the 
authority vested in him by the Congress of the United States to 
determine terms and conditions of employment, made an 
appropriate decision that is also consistent with, I think, the 
status accorded these employees in the Transportation Security 
Act.
    This huge workforce was put together for purposes of 
national security. Being able to move these people around 
under--based on threat information and the like, I think, is 
very consistent with the President's commitment to the civil 
service employees who are presently in the Department who have 
collective bargaining rights. They take those collective 
bargaining rights with them. But these new employees that are 
there by virtue of the Congressional Act status, they exist for 
national security reasons. They are critical to aviation 
security.
    Very appropriately, with Admiral Loy's--and that is the 
administration position, very appropriately said, critical to 
national security. You can work the terms and conditions out, 
but there will be no collective bargaining, which gives him the 
maximum flexibility possible to deploy these resources, these 
men and women, whenever and wherever he needs them.
    Senator Specter. My red light went on during the course of 
your answer, so I am not going to ask another question, but I 
would ask you to submit for the record some responses, and I 
would ask you to supplement the answer you just gave----
    Mr. Ridge. I would be pleased to.
    Senator Specter [continuing]. By specifying to the extent 
you can, what national security interest would have been 
impinged upon had collective bargaining gone forward. I can see 
under some circumstances, stress circumstances, that the 
national security waiver has to be used. But it has been 
applied once, and I would just like to get the reasoning as to 
why it was done here and why it couldn't have been done in 
accordance with generally prevailing collective bargaining 
approaches.
    Mr. Ridge. Senator, I would be pleased to respond.
    Senator Specter. Thank you very much, Governor. Thank you, 
Madam Chairperson.
    Chairman Collins. We have two more Senators who haven't 
questioned this first round. We will then do a brief second 
round before concluding the hearing if others have additional 
questions either to submit for the record or to ask here.
    Senator Pryor.
    Senator Pryor. Thank you, Madam Chairman.
    I have three questions, and I will try to keep them very 
brief, for Governor Ridge. First, Governor Ridge, based on your 
written comments and my personal experience there is no 
question that the States are more prepared today than they were 
on September 11, 2001. But I have to assume that some States 
are more prepared today than others are. I don't want to get 
into the details of States and specifics----
    Mr. Ridge. You are right.
    Senator Pryor [continuing]. But I am curious about, in your 
view, what makes some States more prepared than others? What 
are the States that are really out there that you feel 
comfortable with and confident in? What are they doing that 
some of the other States are not?
    Mr. Ridge. Without identifying any particular States, I 
think that as the leadership in the respective States in the 
preceding years or decades set priorities within their budget, 
some who decided to unify their communications systems a long 
time ago for public safety purposes are in a better position to 
develop an interoperable system than those who didn't unify 
their communications system.
    Some of the States set up very robust emergency management 
agencies with infrastructure that they can communicate with 
localities. Some States were more aggressive in terms of 
training their first responders.
    So there is a variation and what we seek to do and what we 
need to do in the country is bring up--everyone up to a certain 
capacity and then build on that, and that is one of the reasons 
that we have asked the States to develop State-wide first 
responder plans, State-wide bioterrorism plans, so we can 
identify weaknesses that vary from State to State and start 
building minimum capacity around the country.
    Senator Pryor. Will your Department provide not just a 
blueprint and a pathway for that, but also possibly some 
funding?
    Mr. Ridge. Yes.
    Senator Pryor. Will there be funds available for that?
    Mr. Ridge. Yes. The budget that the President submitted 
last February had a 1,000 percent increase in first responder 
money, and hopefully, I haven't seen the omnibus legislation so 
I don't know whether that $3.5 billion, where it is going to be 
in this legislation or if it will be that amount.
    But the reason the President recommended to the Congress a 
1,000 percent increase is he recognized the varying capacities 
and the need for us to build a national response mechanism, and 
to the extent that what we do enables us to prevent attacks or 
reduce our vulnerabilities, we need to partner with the States 
and locals for that.
    So, hopefully, with these first dollars going out 
consistent with State-wide plans, the 2004 budget, there will 
be additional dollars and we can start building that capacity.
    Senator Pryor. My second question or line of questions 
relates to management and quality control within your 
Department. There are going to be about 170,000 employees in 
the Department. We are talking about consolidating or moving or 
transferring about 22 different departments and agencies under 
your umbrella. How do we measure whether the new configuration 
is more efficient and more effective than the previous 
configuration? How do you measure that?
    Mr. Ridge. Well, I think you are asking us to do what needs 
to be done and what is often done in the private sector and 
what we don't do often enough in the public sector, and that is 
set performance standards and metrics by which we can measure 
success. I think as we take a look at building additional 
capacity at our borders, finally, hopefully locking together 
the information generating and sharing capacity that we have, 
there will be ways that we can conclude that because of either 
the structural changes, the personnel changes, that we are more 
successful at interdicting more people or more drugs at the 
border, that we can quantify some of these results. But as we 
go about setting up this organization, setting standards and 
measurements so we can gauge our own progress, this is 
something that we are working on right now.
    And you raise a very good point, just not to belabor the 
answer. We need to help manage better. I have this notion that 
170,000 people go to work every single day, whether at the 
border, whether at the lab, whether they are doing the very 
best they can. Most people want to do the best they can every 
day.
    Senator Pryor. They are trying to make----
    Mr. Ridge. Part of our job is to empower them, maybe 
through better management of them at the local site, by 
engaging them when we talk about operational changes at their 
place of work. So we have got a lot of work to do, and frankly, 
Congress gave us a stable platform for a year when you said 
that everybody that is in the Department now gets their wages, 
their benefits, everything for a year as we try to sort these 
things out with their leadership.
    Senator Pryor. It seems to me that you have a rare 
opportunity to engraft that quality control into the 
foundations of the Department.
    Mr. Ridge. Absolutely.
    Senator Pryor. And you can start with that, which very few 
other departments and agencies have the opportunity to do. So I 
hope you take full advantage of that and I really hope that 
this agency becomes a model of efficiency and effectiveness 
because I think it has the potential of doing that.
    Mr. Ridge. So do I.
    Senator Pryor. The last question I had relates to that, and 
really a three-part question. If you know and if you can say, 
what vaccines are being considered to have at our disposal and 
to be prepared and be ready for use? Where might they be 
stored, and then third, how will the vaccines be distributed? 
That may be too long of a question for us to answer in this 
forum, but I would appreciate a general overview on that.
    Mr. Ridge. It is a very appropriate question because we do 
have the responsibility to build and maintain and occasionally 
supplement the regionally located push-packs that Health and 
Human Services has maintained with vaccines and diagnostics and 
antidotes. I would be happy to provide for you an inventory of 
what is presently in those field offices in those packages.
    One of the responsibilities of the new Department is to 
assess any threat information out there relative to a potential 
bio or chemical attack, see if there is a vaccine or an 
antidote for either/or on the market or under research, and if 
we see a need to press forward to procure it and then make that 
inventory a little bit larger based on our analysis of the 
threat.
    Senator Pryor. Go ahead.
    Chairman Collins. Senator Fitzgerald.
    Senator Fitzgerald. Thank you, Madam Chairman.

            OPENING STATEMENT OF SENATOR FITZGERALD

    Governor Ridge, thank you very much for being here. I think 
it is appropriate that we thank you for being willing to serve 
in this position. You have had a fabulous career in government 
as Governor of Pennsylvania and also in Congress for many 
years. You practiced law in the private sector and you have a 
tremendous record of service in our armed forces, having 
received a Bronze Star. I would just like to thank you for 
offering yourself to your country. It is a considerable 
personal sacrifice to do what you are doing, and I think we are 
lucky to have someone of your caliber. It is a great credit to 
the President who has recommended you for confirmation. So I 
just want to thank you.
    Just a couple of quick questions. I think you answered 
Senator Specter's questions pretty well about the intelligence 
and analysis function. I just want to encourage you, if you do 
feel that we need to amend the statute to give more authority 
later on or you are having trouble with turf battles, to make 
that known and come to us to see what we can do. We have all 
been very worried about a lack of coordination amongst the 
different agencies that have responsibility for intelligence. 
We hope you will have the tools available that you need to 
bring things together. But do come back to us if you think we 
need to make changes in the statute.
    I did want to ask one question about air security. The TSA, 
which will be the Transportation Security Administration, a new 
agency that we have created and which will be transferred to 
your jurisdiction, has done an admirable job in terms of 
meeting the short, quick deadlines Congress imposed upon it to 
start screening all passenger bags. Some thought we would never 
meet the deadline of December 31. There were a lot of nay-
sayers. Secretary Mineta and Admiral Loy got it done, they 
didn't complain, and I think that was very impressive. They are 
doing it not only at large airports like O'Hare in my State, 
but also small airports that I have been through recently and I 
am very impressed.
    I am, however, worried that we are not adequately checking 
the cargo that goes aboard the planes. They aren't subject to 
the same type of screening, although there is some inspection. 
I just wondered whether you had any thoughts on the direction 
we maybe should head in with respect to cargo that travels 
aboard our passenger planes?
    Mr. Ridge. Senator, I want to assure you that Admiral Loy 
and the TSA is cognizant that they have other responsibilities, 
to include the mandated responsibility to ramp up the 
Department and focus on passengers and baggage, but they 
understand full well that the cargo that goes beneath the 
commercial aviation is a potential source of an attack, as 
well. They are working on that and will continue to work with 
the aviation industry to address that.
    There are other concerns with regard to general aviation 
and the intermodal nature of our transportation system, so I 
want to assure that that is just one of the many potential 
vulnerabilities within our transportation system that Admiral 
Loy is working on.
    And I just want to publicly thank you for your public 
recognition of the extraordinary work that Secretary Mineta did 
in order to ramp this thing up in such a short period of time. 
I remember his first visit to the White House, shortly after 
the legislation was passed, and he had a several-page handout 
showing the President, this is what we have got to do, this is 
the process we are going to get it done, and Mr. President, I 
assure you, I have been tasked with this. We are going to get 
it done. And he and Admiral Loy and Michael Jackson, everybody 
over there deserves enormous credit for a job well done and I 
thank you for publicly recognizing that.
    Senator Fitzgerald. Well done, and thank you, Governor 
Ridge. I look forward to voting on the floor of the Senate for 
your nomination and hope we can get it done today, too, and 
perhaps we can.
    Madam Chairman, thank you very much.
    Chairman Collins. Thank you, Senator. Senator Lautenberg.
    Senator Lautenberg. Thank you very much, Madam Chairman. We 
learned something today about you in that your durability looks 
pretty good. You don't look terribly unfresh or anything like 
that. [Laughter.]
    I understand, Governor, that a question was asked about the 
Coast Guard and that you are committed to making sure that they 
are adequately funded for all of their responsibilities. If 
that is the case, I am pleased to hear it and we will forego a 
question that I have that related to that.
    One of the things that occurs to me, and I am sure to you, 
as well, and that is this kind of mix of committee 
responsibilities that are overlapping and you have the job now 
of bringing it all together in kind of one place. By way of 
example, the Commerce Committee, for example, oversees the 
Coast Guard, the Judiciary Committee oversees immigration, and 
the list goes on. I wonder whether you have any views on 
whether or not a Congressional oversight committee, as happens 
with other major departments of an administration, are there to 
be responsible for and responsive to that committee's work. 
Could you see that it might require a Congressional oversight 
committee devoted exclusively to the Department of Homeland 
Security?
    Chairman Collins. I would interject to advise the governor 
to be very careful in how he answers this question if he wants 
to be confirmed today. [Laughter.]
    Senator Lautenberg. This is just conjecture, Madam 
Chairman.
    Mr. Ridge. Thank you, counselor. [Laughter.]
    Thank you, Senator. Senator, perhaps treading on some thin 
ice, but I would like to respond to your question as a former 
member of the House of Representatives and of Congress. I think 
any effort that could be undertaken to reduce the number of 
committees and subcommittees, that we once calculated to be as 
high as 88, that this Department or the units of this 
Department have to report to would be greatly appreciate and, I 
think, lend itself, in my judgment, to even better oversight.
    It is not a conclusion it is probably fair for me to draw, 
but you understand, as I think anyone that has been in Congress 
understands, that the men and women who come before you to 
testify, my colleagues in the cabinet, the under secretaries, 
they just don't walk in and respond to questions. They do a lot 
of preparatory work. The staff does a lot of preparatory work.
    And I think, at least at the outset, the next several 
years, as we are trying to build this organization together, 
any effort to focus the oversight would be certainly 
appreciated on our part, and Madam Chairman, I will leave it up 
to the leaders of this body and the others to determine where 
that focus should be. I hope I got out of that answer without 
too much trouble.
    Senator Lautenberg. One of the things that one dare not do 
in this place is suggest that jurisdictions be moved away from 
particular committees that have worked with these departments 
over a lot of years, a lot of experience gained.
    The only thing that I see, and I come out of the business 
world before I was here and ran a fairly good-sized company, is 
that when it gets to be the size that your Department, we want 
it to be, and whether Commerce decides on what the 
authorization for Coast Guard ought to be, and the Secretary of 
the Department of Homeland Security is kind of left out, maybe 
comes up as a witness, but then you only have part of the 
problem to work with, and it happens throughout the structure, 
whether it is on the appropriations side or otherwise.
    There is no doubt that every one of us here and in the U.S. 
Senate wants your Department to succeed. We are encouraged by 
the fact that you bring the kind of leadership to it that you 
have and we are comforted by that. But I look at how the thing 
works, and the question is not intended to be provocative at 
all because I want the Governmental Affairs Committee to be 
able to take on even more responsibilities, Madam Chairman---- 
[Laughter.]
    But anyway, it is just kind of a ``how do you feel about 
it'' thing.
    One of the things that President Bush talked about in his 
campaign, I have been very involved in trying to curb gun 
violence in the country and have authored a couple of bills, 
one of which had to deal with spousal abuse, and we took 
thousands, I think over 70,000 guns now, gun permits, away from 
being issued to those who were spousal abusers. I had a bill on 
gun show loopholes, where anyone can walk up, no 
identification, nothing, no pictures, no address, nothing, just 
put your money up and take your gun. Some States control that, 
but others don't.
    President Bush said on the campaign trail that he was in 
favor of closing that gun show loophole, where an unlicensed 
dealer could do business there and not break any laws, just 
sell them to the 10 most wanted if they came up to buy guns, 
etc., and he said that he thought an instant background check 
would work. There are some flaws in that.
    Do you see, Governor, that this loophole challenges our 
ability to maintain security as vigorously as we would like it 
to be in this one area? After all, weapons distribution is a 
serious part of what our security is all about.
    Mr. Ridge. Senator, I think I recall the President's 
discussion of that issue during the course of the campaign, and 
not normally one to dodge jurisdictional questions, I think, 
one, it is probably better answered specifically by the 
Department of Justice.
    But two, I don't--when anyone uses a firearm, whether it is 
the kind of terrorism that we are trying to combat with al 
Qaeda and these non-state terrorists, or as a former district 
attorney involved in the conviction of individuals who used 
firearms against innocent citizens, regardless of how we define 
terrorism, that individual and that family felt that they were 
victims of a terrorist act. Brandishing a firearm in front of 
anybody under any set of circumstances is a terrorist act and 
needs to be dealt with.
    I don't view it, as we take a look at the means and methods 
by which the terrorist organizations that we are trying to 
combat go about inflicting harm or damage on our society, I 
don't view that as being a high priority for them. But clearly, 
as a society, reducing the number of violent offenses with 
firearms is a legitimate objective just generally, with or 
without any implications for combatting terrorism.
    Senator Lautenberg. Not having some identification about 
those who buy weapons, I mean, as we have seen of late, we are 
finding people who seem to be part of the terrorist structure, 
and getting guns, of course, is a likely step----
    Mr. Ridge. We discovered in Pennsylvania with our 
background check that we worked with gun control advocates and 
the NRA, we devised a system that provided for that kind of 
information being available, and believe it or not, there are 
still people with convictions and felonies who will actually go 
and try to purchase a firearm. We apprehend dozens of them.
    So there is something for having that information available 
through your local law enforcement, but I don't quite see the 
terrorist connection that you might, and I say that 
respectfully, Senator. It is a problem that we need to deal 
with, violent crime, but I don't view it, based on the 
information we have presently, as being a--it is always an 
option to the kind of terrorist activity that homeland security 
is trying to deal with, but not a favored one at this point.
    Chairman Collins. The Senator's time has expired about 3 
minutes ago and we are going to do another round.
    Senator Lautenberg. I see. Well, if I might, there are a 
couple of other questions like civil liberties in New Jersey. 
We have a substantial Arab American population and I want to 
know that they are protected from random kind of searches and 
things of that nature, and I will submit those questions in 
writing.
    Mr. Ridge. I am pleased to respond to them, Senator.
    Senator Lautenberg. I thank you very much.
    Chairman Collins. Thank you. I appreciate the cooperation 
of the Senator from New Jersey.
    We are going to move to a second round of questions, but 
they will be only 4 minutes per Senator. We are going to try to 
adjourn around 1 p.m., so we will move to that right now.
    Governor Ridge, I want to talk to you a little more about 
the relationship between the new Department and our first 
responders. A friend of mine who is a State trooper told me 
that when he first heard of the attacks of September 11, he was 
riding in his cruiser and he radioed into headquarters and was 
told that there was no information and they didn't know where 
to get further information, that the best source of information 
was CNN.
    Similarly, in the latest Hart-Rudman report, there are 
concerns expressed that local and State police officers 
continue to operate in what the report describes as a virtual 
intelligence vacuum without access to the terrorist watch list. 
I hear concerns and complaints expressed by the police chief in 
the largest city in Maine about how communications are shared.
    Could you tell us your plans for improving communications 
between the officials in Washington, headquarters, if you will, 
and those who are on the front lines, those who are first to 
respond in the event of an attack?
    Mr. Ridge. Madam Chairman, I think the means of 
communication and the source of the communication as we deal 
with first responders and law enforcement are actually several 
in nature. I know that FBI Director Mueller on a fairly regular 
basis through electronic communication updates and informs 
local law enforcement members who participate in the nearly 60 
Joint Terrorism Task Forces around this country.
    That is information that is law enforcement sensitive for 
their use only, not necessarily for public distribution, 
although occasionally it does get out in the public and we 
still haven't learned, I believe, to understand that there will 
be times when we do send information down to local law 
enforcement potentially for them to know, occasionally to act 
upon, that doesn't mean they have to do anything different than 
they are now. Let the law enforcement community do its work.
    We will have a responsibility embodied in the statute as 
well as the President's national strategy to communicate threat 
information as it relates to critical infrastructure to the 
State and local law enforcement community, as well. We will be 
working together with the FBI, as we do now, on trying to 
streamline the process by which they get information, expand 
the kinds of information that they can get and get access to. 
Again, the statute, it directs the office and directs me to 
establish the protocols by which additional information can be 
timely communicated in usable form by local law enforcement. It 
has to be part of our information infrastructure system that we 
will develop in the Department.
    Chairman Collins. Thank you. Senator Carper.
    Senator Carper. Thanks, Madam Chairman.
    When you were Governor of Pennsylvania, did you undertake 
any major reorganizations of State Government?
    Mr. Ridge. Senator, I did, actually. There were a couple of 
them dealing with cabinets. There was one agency that we 
thought should expire and take its task and mission and put it 
in another. We did that, and then we did reorganize our 
environmental agency. Actually, the mission was too broad and 
we divided that and gave it two separate missions. So both in 
terms of merging and separating to do a better job. We moved a 
couple of organizations in both directions. One we merged, one 
we separated.
    And I think at the end of the day, we were able to do it in 
consultation with our legislature, working with the employees 
that were affected, and hopefully somebody will conclude as 
they look back, it was a good thing that we did it and we were 
able to provide better service to whatever constituency--to the 
constituency of Pennsylvania because we did it.
    Senator Carper. When I think about the value of what you 
undertook there and how that might apply to the role you are 
undertaking now, this is several magnitudes beyond that----
    Mr. Ridge. Times 10, I think, maybe 20.
    Senator Carper. I suspect that the size of the workforce 
that you had in Pennsylvania was----
    Mr. Ridge. We had about 80,000, Senator. We had 80,000 
employees in Pennsylvania. This is twice as large. The budget 
is about twice as large, so that is a factor, too. But the 
challenges are absolutely more complex.
    Senator Carper. Just to take this analogy a little bit 
further, let's assume there are only 49 States and that we 
decide to create a 50th and Pennsylvania was created by taking 
like a big part of Northern Delaware---- [Laughter.]
    Mr. Ridge. Another revisionist historical approach.
    Senator Carper. And other pieces from other States and 
somehow cobbling it together to form a commonwealth and you 
ended up being the first governor.
    What I see going on here, this is a merger of sorts, where 
you are taking all these disparate units that have been in the 
past part of other government agencies, and now you have got to 
merge them together with all these different cultures to make 
them work effectively.
    If I were doing that, I think I would look for help. I 
would look for a lot of help. But I would especially look for 
help from people who have had a lot of experience in merging 
different cultures, whether it would be private sector or 
public sector, people who have done that, been there and done 
that, and who could help me and, in this case, help you.
    I presume that when you are looking for, like, a deputy 
secretary and you are looking for other people, whether it is 
on the payroll or folks that you would bring in as consultants 
or hired hands for a while, are you looking to do that to help 
merge all these cultures and to enable us to avoid the kind of 
delay and difficulty we had in creating the Department of 
Defense 50-some years ago?
    Mr. Ridge. Senator, we are. As you know, the President has 
nominated Gordon England, who is presently the Secretary of the 
Navy, to be the Deputy, and he has been involved in the private 
sector most of his life with very complex organizations and is 
knowledgeable from his private sector world about mergers and 
acquisitions and blending cultures and the like.
    You have also given us an opportunity and some flexibility 
in the language of this statute to engage the services of 
people who had that kind of experience as we try to ramp up and 
take these 170,000 people and empower them in different ways, 
train them in different ways so they can maybe be even more 
effective in doing the job we ask them to do now. So we will 
rely on both internal and external sources for that.
    Senator Carper. I urge you to do that. On a different 
subject, others have raised the issue of intelligence and 
trying to figure out how we work with the CIA and the FBI and 
the unit within this new Department. Let me just ask, do you 
support the creation of a statutory Director of National 
Intelligence, and how do you feel about the creation of a new 
domestic intelligence agency?
    Mr. Ridge. Well, I believe the President's decision to task 
Director Mueller and the FBI with the responsibility of 
becoming our domestic counter-terrorism agency, give it primacy 
in that role, is a very appropriate role given to a very 
responsible and effective leader. Director Mueller in a very 
short period of time has substantially enhanced his counter-
terrorism capability internally. He has beefed up the 
analytical capacity of the FBI. He and Director Tenet of the 
CIA are putting together a program so they can begin to train 
and increase significantly the number of analysts available for 
the CIA to deal with counter-terrorism.
    He also, through the support of Congress, and I think you 
have appropriated several hundred million dollars, is right in 
the middle of a very exciting--the creation of an 
infrastructure within the FBI that will make sure that some of 
the obstructions or impediments to the information flow that 
might have existed before he got there, he takes care of them 
through technology. And we have been working with Director 
Mueller to make sure that we have access to some of that 
information as we connect our units to his.
    So I think, in balance, there is no need for a new domestic 
intelligence agency or counter-terrorism agency. That is the 
role the President assigned to the FBI and I think Bob Mueller 
has gone a long way into executing those responsibilities. He 
is moving quickly and he is moving effectively.
    Senator Carper. Thank you, and to Governor Ridge, my 
friend, good luck. Thank you for your willingness to serve.
    Mr. Ridge. Thanks, Senator.
    Chairman Collins. Thank you, Senator Carper. Senator 
Coleman.
    Senator Coleman. Madam Chairman, Governor Ridge, in my 
first series of questions, I talked a little bit about the 
communication issue between those at the Federal level and the 
State and local level. Just to briefly talk a little bit about 
the dollars, and you have addressed some of that already, but 
just a couple of observations.
    If we are to have economic security--and you talk to moms 
and dads and know that this is the kind of issue they can't 
help but think about when taking care of their families, you 
have got to have personal security assured by strong national 
security. I think one can only look at the terrible 
circumstances that surrounded the Washington area, when the 
snipers were loose. Aside from the terrible human toll, there 
was also an the emotional toll and an economic toll. Commerce 
ground to a halt. So we have got to have national security if 
we are to have a strong economy.
    The challenge we face now in my State is we have a $4.5 
billion deficit. As a former mayor, I am very sensitive to 
unfunded mandates--things that we tell folks at the State and 
local level to do but without giving them the money to do it--
so it comes out of the pockets of folks at the local level, 
which are already stretched very thin. But the reality is, at 
the national level, we are also being stretched thin facing our 
own deficit issues.
    Talk to me a little bit about what you think can be done to 
help States, help those at the local level with the additional 
responsibilities that come with enhanced security, enhanced 
safety, enhanced preparedness under the current economic 
circumstances.
    Mr. Ridge. Senator, I believe there are core 
responsibilities that both the Federal Government and State 
Governments and local governments have constitutionally and 
that it is a mistake during these difficult times necessarily 
for any other level of government to look to the Federal 
Government, because they are in a deficit, as if the Federal 
Government did not have a deficit and didn't have to deal with 
it in a meaningful and aggressive way.
    Having said that, and understanding as a former governor 
that I had responsibility for public safety and as one of the 
key responsibilities, those kind of programs should continue to 
be the unique responsibility of the States and locals. If you 
have a difficult--I have had many conversations with my 
Governor friends that these are difficult times, you are going 
to have to set some priorities, because we are going to work 
our way through this difficult economic period. But in the 
meantime, everybody has to set priorities.
    The President has said very clearly, in spite of our 
difficulty at the national level, that we do have a priority to 
significantly increase the Federal dollars available to assist 
States and locals deal with the threat of international 
terrorism. Hopefully, the omnibus bill will put the dollars 
into circulation that the President recommended almost a year 
ago, where we went from $19 billion to over $38 billion for 
homeland security, where bioterrorism dollars went from $1.5 
billion to nearly $6 billion, where first responder money was 
increased 1,000 percent to $3.5 billion, where border security, 
I think the enhancements were substantial to an amount to 
include--the final sum was about $7 billion, somewhere in 
there.
    Bottom line, everybody sets priorities. We, the Federal 
Government, have a responsibility to--the President has 
accepted this--to work with our first responders in certain 
very important but limited ways, and I think he has been--we 
have been very appropriate. I had to certify that budget that 
you are voting on now. Is it necessary? Yes. Is the level 
appropriate? Yes. It is my hope that we can get this omnibus 
bill through and get those dollars out the door, because your 
mayor friends and my governor friends can't wait to take that 
and start building the capacity that we have asked them to 
build.
    Senator Coleman. Thank you, Governor. Thank you, Madam 
Chairman.
    Chairman Collins. Thank you very much, Senator Coleman.
    Governor Ridge, there is just one more matter that I want 
to address with you. As you know, I am hopeful that the 
Committee will waive the rules and act favorably on your 
nomination today. In order to do so, however, I need to secure 
a commitment from you to respond in a timely fashion to 
questions submitted for the record. I have a whole stack myself 
that I didn't get to today. Are you willing to give us that 
commitment?
    Mr. Ridge. Madam Chairman, I assumed that with the schedule 
today of people moving back and forth, there would be quite a 
few questions, and we will get to them as soon as they are sent 
to us and we will respond in a timely way.
    Chairman Collins. I appreciate that commitment. Without 
objection, the record will be kept open until 5 p.m. today for 
the submission of any written questions and statements. Senator 
Santorum asked for me to let you know, Governor Ridge, that he 
apologized for not being able to rejoin us. He was here at the 
beginning----
    Mr. Ridge. I noticed that. Thank you, Senator.
    Chairman Collins My hope is to hold a markup on this 
nominee after the next floor vote. It will be held in the 
President's Room for the convenience of my colleagues. Senator 
Lieberman has graciously agreed that we would waive the 
Committee's rules in order to act today on the nomination and 
that is my hope and intent.
    With that, I want to thank you, Governor Ridge, for 
appearing before the Committee today and for fully answering 
our questions. I believe our Nation is extremely fortunate that 
an individual of your caliber has agreed to accept this truly 
awesome responsibility. So I thank you for being here and I 
look forward to working with you and I hope to have good news 
later today.
    Mr. Ridge. Thank you very much, Madam Chairman. Thank you.
    Chairman Collins. The meeting is now adjourned.
    [Whereupon, at 1 p.m., the Committee was adjourned.]
                            A P P E N D I X

                              ----------                              

[GRAPHIC] [TIFF OMITTED] T5336.001

[GRAPHIC] [TIFF OMITTED] T5336.002

[GRAPHIC] [TIFF OMITTED] T5336.003

[GRAPHIC] [TIFF OMITTED] T5336.004

[GRAPHIC] [TIFF OMITTED] T5336.005

[GRAPHIC] [TIFF OMITTED] T5336.006

[GRAPHIC] [TIFF OMITTED] T5336.007

[GRAPHIC] [TIFF OMITTED] T5336.008

[GRAPHIC] [TIFF OMITTED] T5336.009

[GRAPHIC] [TIFF OMITTED] T5336.010

[GRAPHIC] [TIFF OMITTED] T5336.011

[GRAPHIC] [TIFF OMITTED] T5336.012

[GRAPHIC] [TIFF OMITTED] T5336.013

[GRAPHIC] [TIFF OMITTED] T5336.014

[GRAPHIC] [TIFF OMITTED] T5336.015

[GRAPHIC] [TIFF OMITTED] T5336.016

[GRAPHIC] [TIFF OMITTED] T5336.017

[GRAPHIC] [TIFF OMITTED] T5336.018

[GRAPHIC] [TIFF OMITTED] T5336.019

[GRAPHIC] [TIFF OMITTED] T5336.020

[GRAPHIC] [TIFF OMITTED] T5336.021

[GRAPHIC] [TIFF OMITTED] T5336.022

[GRAPHIC] [TIFF OMITTED] T5336.023

[GRAPHIC] [TIFF OMITTED] T5336.024

[GRAPHIC] [TIFF OMITTED] T5336.025

[GRAPHIC] [TIFF OMITTED] T5336.026

[GRAPHIC] [TIFF OMITTED] T5336.027

[GRAPHIC] [TIFF OMITTED] T5336.028

[GRAPHIC] [TIFF OMITTED] T5336.029

[GRAPHIC] [TIFF OMITTED] T5336.030

[GRAPHIC] [TIFF OMITTED] T5336.031

[GRAPHIC] [TIFF OMITTED] T5336.032

[GRAPHIC] [TIFF OMITTED] T5336.033

[GRAPHIC] [TIFF OMITTED] T5336.034

[GRAPHIC] [TIFF OMITTED] T5336.035

[GRAPHIC] [TIFF OMITTED] T5336.036

[GRAPHIC] [TIFF OMITTED] T5336.037

[GRAPHIC] [TIFF OMITTED] T5336.038

[GRAPHIC] [TIFF OMITTED] T5336.039

[GRAPHIC] [TIFF OMITTED] T5336.040

[GRAPHIC] [TIFF OMITTED] T5336.041

[GRAPHIC] [TIFF OMITTED] T5336.042

[GRAPHIC] [TIFF OMITTED] T5336.043

[GRAPHIC] [TIFF OMITTED] T5336.044

[GRAPHIC] [TIFF OMITTED] T5336.045

[GRAPHIC] [TIFF OMITTED] T5336.046

[GRAPHIC] [TIFF OMITTED] T5336.047

[GRAPHIC] [TIFF OMITTED] T5336.048

[GRAPHIC] [TIFF OMITTED] T5336.049

[GRAPHIC] [TIFF OMITTED] T5336.050

[GRAPHIC] [TIFF OMITTED] T5336.051

[GRAPHIC] [TIFF OMITTED] T5336.052

[GRAPHIC] [TIFF OMITTED] T5336.053

[GRAPHIC] [TIFF OMITTED] T5336.054

[GRAPHIC] [TIFF OMITTED] T5336.055

[GRAPHIC] [TIFF OMITTED] T5336.056

[GRAPHIC] [TIFF OMITTED] T5336.057

[GRAPHIC] [TIFF OMITTED] T5336.058

[GRAPHIC] [TIFF OMITTED] T5336.059

[GRAPHIC] [TIFF OMITTED] T5336.060

[GRAPHIC] [TIFF OMITTED] T5336.061

[GRAPHIC] [TIFF OMITTED] T5336.062

[GRAPHIC] [TIFF OMITTED] T5336.063

[GRAPHIC] [TIFF OMITTED] T5336.064

[GRAPHIC] [TIFF OMITTED] T5336.065

[GRAPHIC] [TIFF OMITTED] T5336.066

[GRAPHIC] [TIFF OMITTED] T5336.067

[GRAPHIC] [TIFF OMITTED] T5336.068

[GRAPHIC] [TIFF OMITTED] T5336.069

[GRAPHIC] [TIFF OMITTED] T5336.070

[GRAPHIC] [TIFF OMITTED] T5336.071

[GRAPHIC] [TIFF OMITTED] T5336.072

[GRAPHIC] [TIFF OMITTED] T5336.073

[GRAPHIC] [TIFF OMITTED] T5336.074

[GRAPHIC] [TIFF OMITTED] T5336.075

[GRAPHIC] [TIFF OMITTED] T5336.076

[GRAPHIC] [TIFF OMITTED] T5336.077

[GRAPHIC] [TIFF OMITTED] T5336.078

[GRAPHIC] [TIFF OMITTED] T5336.079

[GRAPHIC] [TIFF OMITTED] T5336.080

[GRAPHIC] [TIFF OMITTED] T5336.081

[GRAPHIC] [TIFF OMITTED] T5336.082

[GRAPHIC] [TIFF OMITTED] T5336.083

[GRAPHIC] [TIFF OMITTED] T5336.084

[GRAPHIC] [TIFF OMITTED] T5336.085

[GRAPHIC] [TIFF OMITTED] T5336.086

[GRAPHIC] [TIFF OMITTED] T5336.087

[GRAPHIC] [TIFF OMITTED] T5336.088

[GRAPHIC] [TIFF OMITTED] T5336.089

[GRAPHIC] [TIFF OMITTED] T5336.090

[GRAPHIC] [TIFF OMITTED] T5336.091

[GRAPHIC] [TIFF OMITTED] T5336.092

[GRAPHIC] [TIFF OMITTED] T5336.093

[GRAPHIC] [TIFF OMITTED] T5336.094

[GRAPHIC] [TIFF OMITTED] T5336.095

[GRAPHIC] [TIFF OMITTED] T5336.096

[GRAPHIC] [TIFF OMITTED] T5336.097

[GRAPHIC] [TIFF OMITTED] T5336.098

[GRAPHIC] [TIFF OMITTED] T5336.099

[GRAPHIC] [TIFF OMITTED] T5336.100

[GRAPHIC] [TIFF OMITTED] T5336.101

[GRAPHIC] [TIFF OMITTED] T5336.102

[GRAPHIC] [TIFF OMITTED] T5336.103

[GRAPHIC] [TIFF OMITTED] T5336.104

[GRAPHIC] [TIFF OMITTED] T5336.105

[GRAPHIC] [TIFF OMITTED] T5336.106

[GRAPHIC] [TIFF OMITTED] T5336.107

[GRAPHIC] [TIFF OMITTED] T5336.108

[GRAPHIC] [TIFF OMITTED] T5336.109

[GRAPHIC] [TIFF OMITTED] T5336.110

[GRAPHIC] [TIFF OMITTED] T5336.111

[GRAPHIC] [TIFF OMITTED] T5336.112

[GRAPHIC] [TIFF OMITTED] T5336.113

[GRAPHIC] [TIFF OMITTED] T5336.114

[GRAPHIC] [TIFF OMITTED] T5336.115

[GRAPHIC] [TIFF OMITTED] T5336.116

[GRAPHIC] [TIFF OMITTED] T5336.117

[GRAPHIC] [TIFF OMITTED] T5336.118

[GRAPHIC] [TIFF OMITTED] T5336.119

[GRAPHIC] [TIFF OMITTED] T5336.120

[GRAPHIC] [TIFF OMITTED] T5336.121

[GRAPHIC] [TIFF OMITTED] T5336.122

[GRAPHIC] [TIFF OMITTED] T5336.123

[GRAPHIC] [TIFF OMITTED] T5336.124

[GRAPHIC] [TIFF OMITTED] T5336.125

[GRAPHIC] [TIFF OMITTED] T5336.126

[GRAPHIC] [TIFF OMITTED] T5336.127

[GRAPHIC] [TIFF OMITTED] T5336.128

[GRAPHIC] [TIFF OMITTED] T5336.129

[GRAPHIC] [TIFF OMITTED] T5336.130

[GRAPHIC] [TIFF OMITTED] T5336.131

[GRAPHIC] [TIFF OMITTED] T5336.132

[GRAPHIC] [TIFF OMITTED] T5336.133

[GRAPHIC] [TIFF OMITTED] T5336.134

[GRAPHIC] [TIFF OMITTED] T5336.135

[GRAPHIC] [TIFF OMITTED] T5336.136

[GRAPHIC] [TIFF OMITTED] T5336.137

[GRAPHIC] [TIFF OMITTED] T5336.138

[GRAPHIC] [TIFF OMITTED] T5336.139

[GRAPHIC] [TIFF OMITTED] T5336.140

[GRAPHIC] [TIFF OMITTED] T5336.141

[GRAPHIC] [TIFF OMITTED] T5336.142

[GRAPHIC] [TIFF OMITTED] T5336.143

[GRAPHIC] [TIFF OMITTED] T5336.144

[GRAPHIC] [TIFF OMITTED] T5336.145

[GRAPHIC] [TIFF OMITTED] T5336.146

[GRAPHIC] [TIFF OMITTED] T5336.147

[GRAPHIC] [TIFF OMITTED] T5336.148

[GRAPHIC] [TIFF OMITTED] T5336.149

[GRAPHIC] [TIFF OMITTED] T5336.150

[GRAPHIC] [TIFF OMITTED] T5336.151

[GRAPHIC] [TIFF OMITTED] T5336.152

[GRAPHIC] [TIFF OMITTED] T5336.153

[GRAPHIC] [TIFF OMITTED] T5336.154

[GRAPHIC] [TIFF OMITTED] T5336.155

[GRAPHIC] [TIFF OMITTED] T5336.156

[GRAPHIC] [TIFF OMITTED] T5336.157

[GRAPHIC] [TIFF OMITTED] T5336.158

[GRAPHIC] [TIFF OMITTED] T5336.159

[GRAPHIC] [TIFF OMITTED] T5336.160

[GRAPHIC] [TIFF OMITTED] T5336.161

[GRAPHIC] [TIFF OMITTED] T5336.162

[GRAPHIC] [TIFF OMITTED] T5336.163

[GRAPHIC] [TIFF OMITTED] T5336.164

[GRAPHIC] [TIFF OMITTED] T5336.165

[GRAPHIC] [TIFF OMITTED] T5336.166

[GRAPHIC] [TIFF OMITTED] T5336.167

[GRAPHIC] [TIFF OMITTED] T5336.168

[GRAPHIC] [TIFF OMITTED] T5336.169

[GRAPHIC] [TIFF OMITTED] T5336.170

[GRAPHIC] [TIFF OMITTED] T5336.171

[GRAPHIC] [TIFF OMITTED] T5336.172

[GRAPHIC] [TIFF OMITTED] T5336.173

[GRAPHIC] [TIFF OMITTED] T5336.174

[GRAPHIC] [TIFF OMITTED] T5336.175

[GRAPHIC] [TIFF OMITTED] T5336.176

[GRAPHIC] [TIFF OMITTED] T5336.177

[GRAPHIC] [TIFF OMITTED] T5336.178

[GRAPHIC] [TIFF OMITTED] T5336.179

[GRAPHIC] [TIFF OMITTED] T5336.180

[GRAPHIC] [TIFF OMITTED] T5336.181

                                   - 

</pre></body></html>
